<html>
<title> - INVESTING IN YOUNG CHILDREN PAYS DIVIDENDS: THE ECONOMIC CASE FOR EARLY CARE AND EDUCATION</title>
<body><pre>[Senate Hearing 110-217]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-217
 
INVESTING IN YOUNG CHILDREN PAYS DIVIDENDS: THE ECONOMIC CASE FOR EARLY 
                           CARE AND EDUCATION

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2007

                               __________

          Printed for the use of the Joint Economic Committee



                    U.S. GOVERNMENT PRINTING OFFICE
38-106                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Charles E. Schumer, New York,        Carolyn B. Maloney, New York, Vice 
    Chairman                             Chair
Edward M. Kennedy, Massachusetts     Maurice D. Hinchey, New York
Jeff Bingaman, New Mexico            Baron P. Hill, Indiana
Amy Klobuchar, Minnesota             Loretta Sanchez, California
Robert P. Casey, Jr., Pennsylvania   Elijah E. Cummings, Maryland
Jim Webb, Virginia                   Lloyd Doggett, Texas
Sam Brownback, Kansas                Jim Saxton, New Jersey, Ranking 
John E. Sununu, New Hampshire            Minority
Jim DeMint, South Carolina           Kevin Brady, Texas
Robert F. Bennett, Utah              Phil English, Pennsylvania
                                     Ron Paul, Texas

                   Nan Gibson, Deputy Staff Director
            Christopher J. Frenze, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                      Opening Statement of Members

Statement of Hon. Robert P. Casey, Jr., a U.S. Senator from 
  Pennsylvania...................................................     1
Statement of Hon. Carolyn B. Maloney, Vice Chair, a U.S. 
  Representative from New York...................................     4
Statement of Hon. Lloyd Doggett, a U.S. Representative from Texas     6
Statement of Hon. Amy Klobuchar, a U.S. Senator from Minnesota...     6
Statement of Hon. Elijah E. Cummings, a U.S. Representative from 
  Maryland.......................................................     7

                               Witnesses

Statement of Dr. James J. Heckman, recipient of the 2000 Nobel 
  Prize in Economic Sciences and the Henry Schultz Distinguished 
  Service Professor of Economics, University of Chicago..........     9
Statement of Hon. Kathleen Sebelius, Governor of the State of 
  Kansas.........................................................    13
Statement of Harriet Dichter, deputy secretary, Pennsylvania 
  Office of Child Development and Early Learning.................    16
Statement of Douglas J. Besharov, director, Social and Individual 
  Responsibility Project, American Enterprise Institute..........    20

                       Submissions for the Record

Prepared statement of Senator Charles E. Schumer, Chairman.......    47
Prepared statement of Senator Robert P. Casey, Jr................    48
Prepared statement of Representative Carolyn B. Maloney, Vice 
  Chair..........................................................    50
Prepared statement of Dr. James J. Heckman, recipient of the 2000 
  Nobel Prize in Economic Sciences and the Henry Schultz 
  Distinguished Service Professor of Economics, University of 
  Chicago, American Bar Foundation...............................    51
Prepared statement of Senator Sam Brownback, Senior Republican 
  Senator........................................................    56
Prepared statement of Hon. Kathleen Sebelius, Governor of the 
  State of Kansas................................................    56
Prepared statement of Harriet Dichter, deputy secretary, Office 
  of Child Development and Early Learning, Pennsylvania 
  Departments of Education and Public Welfare....................    59
Prepared statement of Douglas J. Besharov, American Enterprise 
  Institute for Public Policy Research...........................    62


INVESTING IN YOUNG CHILDREN PAYS DIVIDENDS: THE ECONOMIC CASE FOR EARLY 
                           CARE AND EDUCATION

                              ----------                              


                        WEDNESDAY, JUNE 27, 2007

             Congress of the United States,
                          Joint Economic Committee,
                                                     Washington, DC
    The Committee met at 11:00 a.m. in room 216 of the Hart 
Senate Office Building, the Honorable Robert P. Casey, Jr., and 
Vice Chair Carolyn B. Maloney, presiding.
    Senators present: Brownback, Casey, and Klobuchar.
    Representatives present: Cummings, Doggett, and Maloney.
    Staff present: Christina Baumgardner, Judd Cramer, 
Christina FitzPatrick, Chris Frenze, Nan Gibson, Rachel 
Greszler, Colleen Healy, Aaron Kabaker, Robert O'Quinn, Almas 
Sayeed, Jeff Schlagenhauf, Robert Weingart, and Andrew Wilson.

OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., A U.S. SENATOR 
                       FROM PENNSYLVANIA

    Senator Casey [presiding]. Good morning. This hearing will 
come to order. I want to welcome all those who are with us 
today for this Joint Economic Committee hearing, Investing in 
Young Children Pays Dividends: The Economic Case for Early Care 
and Education.
    I want to thank all of the witnesses who are with us today, 
and I also want to especially thank Senator Schumer for his 
leadership of this Committee and for his work on this hearing, 
and his staff and the Joint Economic Committee staff.
    [The prepared statement of Chairman Charles E. Schumer 
appears in the Submissions to the Record on page 47.]
    I also want to thank Congresswoman Carolyn Maloney, who is 
with us, our Vice Chair, who has worked on this issue for many 
years and is helping us on this legislation, and also for the 
privilege that I have today of co-chairing this hearing.
    Congresswoman Maloney knows that in Washington it takes a 
long time to become a Chairman or Chairwoman, and I'm honored 
to do that today. If I make any mistakes she has all the 
authority in the world to correct me, but I'm honored to be 
with her today.
    And I also want to thank her for working in a focused way 
on our legislation which is the Prepare All Kids Act of 2007 
which she introduced in the House. We had introduced it in the 
Senate already.
    So I look forward to working with her and her colleagues 
and our colleagues in the United States Senate on this issue 
and so many others who are with us.
    I also want to say that today we have an opportunity, I 
think, to explore a number of issues including prekindergarten 
education which is the main focus of our legislation.
    But we're also fortunate today to have an outstanding 
panel, and I know Governor Sebelius will be here shortly, but I 
wanted to thank the witnesses for their appearance but also for 
their expertise, their insight, and their labor over many years 
on these issues.
    I want to thank each of you for taking the time out of what 
I know are very full schedules to be with us today.
    And I want to say, as a United States Senator but also as a 
father and a citizen, that it's an honor to chair this hearing 
to focus on the well-being of our children.
    This morning we're here to evaluate and examine the value 
of early childhood investments, and I believe that we'll find 
that there's no smarter investment that we can make than this.
    I have long been an advocate for investing in children, in 
State government, for a decade as auditor general and State 
treasurer, working on childcare affordability and other issues 
that pertain to our children, so it's a privilege to continue 
this work in the United States Senate.
    The Prepare All Kids Act of 2007, which I introduced last 
month and which Representative Maloney has introduced in the 
House along with Representatives Allyson Schwartz and Maurice 
Hinchey, has a very simple goal: It helps our States provide 
high-quality prekindergarten programs that will prepare 
children and, particularly, low-income children for a 
successful transition to kindergarten and elementary school.
    Too many children and, frankly, too many economically-
disadvantaged children are entering school behind their more 
privileged peers. And many times these lags persist into 
adulthood and are never reversed, and we can all do something 
about that.
    So why should we invest in high-quality childhood 
development in education? Well, I think we're all here because 
we think it's the right thing to do--that's obvious--for 
children and for families, but decades of research tell us that 
it also makes sense from a lot of different angles.
    If you just look at it from a purely financial or monetary 
or revenue investment, the evidence overwhelmingly supports the 
economic value of investing in high-quality early education.
    According to one study, which I know our witnesses know 
well, we save $17 for every 1 dollar invested. Dr. Heckman, who 
is with us today, is a Nobel Laureate in economics, and he's 
been a great leader in this field, and he's done a lot of the 
tremendous work on the benefits of early childhood investments, 
so I look forward to his testimony today, about why it's so 
important and cost-effective to invest in children, 
particularly economically-disadvantaged children, as early as 
possible.
    Just a few brief highlights on a number of matters before 
this hearing today: High-quality early education and 
development programs significantly improve children's outcomes. 
We know that.
    They are more likely to graduate from high school; less 
likely--it's very important to say what happens that's less 
likely--to be in special education classes, to become pregnant 
at an early age; less likely to engage in criminal activity as 
teenagers, or pursue other risky behaviors like smoking and 
drug use.
    Research from landmark studies in the Chicago Child-Parent 
Center and the Perry Preschool Study, have documented these 
findings.
    High-quality early education programs have a positive 
impact on State and Federal budgets. I don't need to review 
that; we know what that means.
    High-quality early education strengthens the economy 
because, in the long term, we're not just talking about 
cognitive development but also non-cognitive gains that 
children have in qualities like perseverance and motivation, 
things that we often have difficulty measuring, but we know how 
important that is to a future employee here in America.
    Investing in high-quality childcare assistance, as well as 
pre-K, also strengthens the economy. The importance of high-
quality, affordable childcare, we know, is important for 
promoting female labor force participation, increasing parent 
productivity, and keeping parents in the workforce. We know all 
of this is well-documented.
    So this morning we'll hear about the programs that are most 
helpful to children and early childhood.
    One of these is prekindergarten education. Most States have 
either begun or are on their way to developing such programs.
    One of our witnesses, Governor Kathleen Sebelius, will talk 
about the tremendous work her State is doing in the State of 
Kansas, in this area, to develop a system to improve the 
education and early care of children.
    In Pennsylvania, we have a great example of that. Governor 
Rendell is working on the Pre-K Counts Initiative which will 
provide 11,000 3- and 4-year-olds with voluntary, high-quality 
prekindergarten that is targeted to reach children most at risk 
of academic failure.
    Harriet Dichter is with us today--someone I have known for 
a long time--who's now and has been, for many years, working 
with the Governor on this to streamline and coordinate services 
for at-risk children, and we'll hear more about that in a 
couple of moments.
    So if we really want to focus on helping our children and 
helping our families, I think it's critically important that we 
focus on these important initiatives and programs today.
    Now, we hear, when we bring up these issues, talk about 
money and finances and revenues, and we hear that a lot in 
Washington. But I think when you think of some of the cuts that 
this Administration has made in Head Start and subsidized 
childcare, that's particularly a disgrace.
    We also will hear about the cost of this in the context of 
other breaks we're giving in the budget. We hear that these 
programs, because some of them require new investments, deserve 
some kind of a challenge, some kind of a debate, and that's 
important.
    But I would challenge anyone, and I would debate anyone who 
claims that we can't afford to invest more in early childhood 
education programs.
    Clearly, when you have an Administration which, over many 
years now, has provided tax cuts for millionaires and 
multimillionaires and billionaires, I think we can find a 
little bit of money here and there for children and for these 
important programs.
    It's worth noting that in 2008 alone, the value of tax cuts 
for households with incomes exceeding $200,000 a year is 
projected to be $100 billion, just 1 year for a small sector of 
our population.
    They're doing pretty well. They've had a lot of help from 
the Government, year after year. I think it's about time we 
focused a little bit of time and a significant amount of 
resources on our children.
    So this bill, Prepare All Kids Act, calls for an initial 
investment of $5 billion in 2008, which grows to $9 billion--
one billion a year--until 2012.
    So we really don't have a money problem, when you consider 
those numbers; we've got a priorities problem, and we've got to 
cure that.
    The States across the country are doing their part. I 
talked about Governor Sebelius's programs, Pennsylvania's, and 
others which are doing good work, and we need to support them.
    And I want to shorten my statement so we can get right to 
our Vice Chair so she can offer her opening statement, but I 
think that when you get right down to this, it's plain common 
sense.
    We can pay now or pay later, and if we pay later, we're 
going to pay a lot more, and it's not just going to be money 
that we're going to be paying; we're going to be paying a human 
cost as well.
    And I really believe that every child is born with a light 
in them, and I think it's critically important and essential 
that all of us who have the opportunity and the power to do 
something about this do everything possible to keep that bright 
light in a child burning ever brightly.
    This legislation and the initiatives that surround this, 
whether it's prekindergarten education, quality childcare, 
early education, and care, are critical to keeping that bright 
light burning ever brightly for that child, and I think, 
eventually for our economy and for our Nation.
    With that, I turn to our Vice Chair, Congresswoman Maloney, 
and thank her for her help on this.
    [The prepared statement of Senator Casey appears in the 
Submissions to the Record on page 48.]

  OPENING STATEMENT OF HON. CAROLYN B. MALONEY, VICE CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Vice Chair Maloney. Thank you, thank you, thank you very 
much. Good morning.
    I would like to thank Chairman Schumer and Chairman Casey 
and Congressman Doggett for encouraging us to hold this hearing 
to examine the economic benefits of investing in high-quality 
care and education for the children of our Nation.
    This is the second in a series of hearings that the Joint 
Economic Committee will hold, as Democrats in Congress work to 
develop policies for the 21st Century, that help families 
balance the competing demands of work and family 
responsibilities.
    I am honored to co-chair this hearing with Senator Casey 
who has provided leadership on this issue for many years in his 
home State of Pennsylvania and now in the U.S. Senate, and I am 
pleased to be the lead sponsor in the House of Representatives 
of his Prepare All Children Act of 2007 which is designed to 
help States expand their pre-K programs and childcare services, 
a goal that we both believe is critically important to our 
Nation.
    I really want to just say that I'm deeply appreciative to 
all of our panelists for their lifetime commitment 
professionally to helping our Nation's children and for being 
here today.
    More than a quarter of a million 4-year-olds in New York 
State would be eligible for the program created through this 
bill, including 100,000 children who would qualify for free 
pre-K.
    At Speaker Pelosi's National Summit on America's Children 
last month, a compelling body of research was presented that 
makes clear that early intervention improves children's lives 
and eases the burden on public resources.
    With the limited public resources we currently have, we get 
the biggest bang for the money we spend by investing in our 
children before they even go to school.
    Estimates show that the return on investing in early care 
and education is between 7 to 18 percent annually. If this were 
a stock, all of Wall Street would be buying.
    Children are our most precious resource, and the success of 
our Nation depends on their ability to achieve their full 
potential. Early care and education fosters higher labor force 
participation and earnings, increases future productivity and 
economic growth, and helps maintain our ability to compete in 
the global economy.
    Quality childcare can help businesses' bottom lines by 
improving worker productivity, reducing absenteeism, and 
lowering turnover.
    Estimates show that employee absences due to childcare 
breakdowns cost U.S. businesses $3 billion annually. But there 
is a shortage of affordable childcare around the country and 
especially in the city I represent.
    More than half of all women with preschool-aged children in 
my District are in the workforce and desperately need help 
finding childcare.
    Many childcare providers in low- and moderate-income areas 
operate out of their homes. In the House of Representatives we 
passed a bill which included an amendment I authored called 
KiddyMac. KiddyMac encourages lenders to offer mortgages on 
low- and moderate-income housing with licensed childcare 
facilities in order to help increase the supply of daycare 
facilities.
    The Federal Government can also play a role in ensuring 
quality childcare by establishing minimum standards. Children 
need to be in safe environments that promote healthy 
development and lay the foundation for future success in 
schools.
    Children in quality care are found to have better language 
and math skills, and have fewer disciplinary problems, but many 
States do not set adequate standards for childcare quality, 
including mandating low child-teacher ratios or requiring 
teachers to have training in early childcare education.
    I really, truly, want to thank our distinguished panel of 
witnesses for being here today, and I look forward to their 
testimony about setting our children on a path for success 
early in life.
    I do want to mention that Dr. Heckman testified earlier at 
the Summit on Children that was organized by the Congressional 
Democrats, and gave a very compelling case, and we truly worked 
hard and appealed to him to come back and be part of this 
effort to follow up on the vision that he and others brought to 
that Summit, so that the ideas put forward can be put into the 
reality of a law that will hopefully pass and be part of 
helping our children in America.
    So I thank all of our panelists for being here, and we look 
forward to your testimony.
    [The prepared statement of Representative Maloney appears 
in the Submissions to the Record on page 50.]
    Senator Casey. Thank you, Congresswoman. Next, we have 
Representative Doggett from the State of Texas. Thank you for 
being here.

  STATEMENT OF HON. LLOYD DOGGETT, A U.S. REPRESENTATIVE FROM 
                             TEXAS

    Representative Doggett. Thank you very much, and thank you 
very much for your leadership on this important piece of 
legislation and that of Congresswoman Maloney, who has been 
such a long-time advocate for children in the House.
    I think that the hope of some further change here in 
Washington will clearly bring us a Federal role in encouraging 
the States to continue what is already happening, to upgrade 
the quality and the coverage of early childhood education.
    One of the questions that we get to explore this morning is 
how broad that commitment can be, and where we can be most 
effective.
    I'm appreciative of the fact that you have assembled such 
an impressive panel of people who are already taking leadership 
in your home State of Pennsylvania and certainly in Kansas 
which joined my home State of Texas recently in extending 
benefits to military families with the Early Childhood 
Education Programs.
    Dr. Heckman's testimony, of course, was impressive to our 
Summit, and I look forward to hearing you again. You've been so 
important with your studies in engaging the business community 
and building the understanding and the coalitions necessary to 
make legislation like you've offered a reality. Thank you.
    Senator Casey. Thank you, Representative Doggett. And we're 
doing this in order of appearance, and the next one to appear 
is Senator Klobuchar, my colleague in the Senate. Thank you, 
Senator.

 STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much Senator Casey, 
and thank you for holding this important hearing.
    It's great to see you chairing a hearing, and we look 
forward to your leadership on this Committee. Thank you also 
for sponsoring the legislation, as well as you, Vice Chair 
Maloney.
    I come from Minnesota where we've done a lot of good 
studying of this issue. I wish we'd done a little more 
investing in addition to the studying, but we actually had a 
landmark study coming out of Minnesota with Art Rolnick, who is 
with the Federal Reserve.
    He is the Vice President and Research Head of the Federal 
Reserve, and a friend of mine. He calculated that the annual 
return on investing in early childhood development programs can 
be as high as 16 percent, with 75 percent of the benefit going 
to taxpayers in the form of decreased expenditures on special 
education, welfare, and crime.
    To put that number in perspective, the long-term inflation-
adjusted return on U.S. stocks is about 7 percent. So I think 
we need to also start talking about this in terms of the 
benefit that we're all going to see if we are smart about 
investing.
    As a former prosecutor, I got involved in the group, Fight 
Crime: Invest in Kids. I remember going to some of the national 
meetings with all of these burly sheriffs and wondering how 
they came to this group.
    After I was a prosecutor for awhile, I saw the huge 
correlation between school enrollment and staying in school, 
and how that leads to not getting involved in crime. In fact, 
the first year I was D.A., we had eight murders that were 
committed by juveniles. These were young men 16 years and 
under.
    We looked back at the records, and all of these men came 
from troubled families and had issues, but one of the things 
that they all had in common was that their trouble with the law 
started when they started to miss school.
    It's not that hard to make the connection between their 
truancy and their disconnection to their schools. Because most 
of them had no early childhood training, as they entered their 
classrooms, they felt they did not know anything compared to 
the other kids.
    This isn't to excuse their behavior or to say that we 
didn't put them in prison; we did. It is just to say that we 
are spending money in ways that we may not have to if we were 
smarter about early childhood education.
    So I thank our witnesses and I look forward to hearing from 
you today.
    Senator Casey. Thank you, Senator. Representative Cummings 
is next. Thank you, Congressman, for being here with us today.

  STATEMENT OF HON. ELIJAH E. CUMMINGS, A U.S. REPRESENTATIVE 
                         FROM MARYLAND

    Representative Cummings. Thank you very much, Mr. Chairman. 
It is certainly and quite an appropriate hearing, and I want to 
thank you for calling it.
    As one who lives in the inner city in Baltimore, and one 
who has seen many children, sadly, who have fallen by the 
wayside, it certainly is--I think it is very important that we 
put the spotlight on our children and things that we can do for 
them early in their lives.
    In Maryland, we just had the case of Damonte Driver, a 12-
year-old boy who needed some dental care, about $80 worth, and 
did not get it. He was on Medicaid, had problems finding a 
Medicaid doctor--dentist to treat him. He didn't get treated, 
and he died--12 years old.
    And then when it comes to education, I have often said that 
while I am concerned about the terrorists overseas, I am--and I 
know that they are a threat to our national security, the 
greatest threat to our national security is our failure to 
properly bring up and educate our children. That is a major 
threat.
    As the Senator spoke a moment ago, I could not help just 
think about all the children that I see when I go to elementary 
schools in my district in the inner city, and I look at them 
and I ask the question, where will they be 20 years from now? 
Will they be in a prison? Will they be in college?
    And I am convinced that when children are conceived that 
they already have gifts already in them. I believe that; I just 
believe it.
    The question is, what will we, as adults, do to bring those 
gifts out, to nurture them and help them to be all that God has 
meant for them to be.
    And so I applaud what is being done here today. I look 
forward to hearing the testimony.
    I have said it before, but our children are the living 
messages we send to a future we will never see. The question 
becomes: What kind of message are we sending if we don't allow 
them and do the things that are necessary for them to grow up, 
develop, and be assets to our society?
    And so, Mr. Chairman, I yield back.
    Senator Casey. Thank you, Congressman. What we'll do is 
we're going to go in an order that I think makes some sense in 
terms of timing and in terms of our witnesses.
    I know that Governor Sebelius is not here yet, but we'll 
await her, but prior to that, I thought we would start with Dr. 
Heckman, and I think what we'll try to do is keep statements 
around 8 minutes, if that's possible, and keep our questions to 
5 minutes, and maybe get a couple of rounds.
    I wanted to introduce our witnesses right before they give 
testimony instead of introducing them all at once like is 
sometimes done here in Washington, but I think it's better to--
--
    Senator Klobuchar. Rebel.
    [Laughter.]
    Senator Casey [continuing]. Go one at a time. So I want to, 
first of all, introduce Dr. Heckman. Dr. Heckman is the Henry 
Schultz Distinguished Service Professor of Economics at the 
University of Chicago.
    He is also the Year 2000 winner of the Nobel Prize for 
Economic Sciences. His research deals with such issues as 
evaluation of social programs, econometric models of discrete 
choice, and longitudinal data; the economics of the labor 
market; and alternative models of the distribution of income.
    In addition to the Nobel Prize, Professor Heckman has 
received numerous awards for his work, including the John Bates 
Clark Award of the American Economic Association in 1983; the 
2005 Jacob Mincer Award for Lifetime Achievement in Labor 
Economics; the 2005 University College, Dublin Ulysses Medal; 
and the 2005 Aignar Award for the Journal of Econometrics.
    He's the author of several publications and books 
including: Inequality in America: What Role for Human Capital 
Policy?
    On a personal note, Dr. Heckman's research has been very 
instrumental to me and to my staff and, I know, to the staff of 
many here on Capitol Hill. Also, we appreciate the expertise 
that he brings to this issue and the value he places on early 
childhood investments.
    So Dr. Heckman, we're honored to have you here today, and 
we're honored by your testimony.

STATEMENT OF DR. JAMES J. HECKMAN, RECIPIENT OF THE 2000 NOBEL 
PRIZE IN ECONOMIC SCIENCES AND THE HENRY SCHULTZ DISTINGUISHED 
     SERVICE PROFESSOR OF ECONOMICS, UNIVERSITY OF CHICAGO

    Dr. Heckman. Thank you very much. Senator Casey, 
Representative Maloney, and other distinguished Members of the 
panel, it's a great honor to be invited here today and to 
participate in today's hearing.
    As has already been stated and will be stated again, the 
issues addressed here today are of basic importance to the 
country, and they concern the well-being of our children and 
the future of American society.
    I want to summarize, in the short time allotted me, a large 
and convincing body of research in psychology, economics, and 
neuroscience that's come together and that points to the 
importance of the early years in producing successful outcomes 
for the advantaged and in accounting for social pathologies 
found among the disadvantaged.
    This research, taken as a body, should cause us to rethink 
policies focused on human development. We have come to 
understand that the accident of birth is the greatest source of 
inequality in American society and that public policy should 
recognize this.
    If you consider the problem of rising inequality in 
America, which is hotly debated on Capitol Hill and in many 
other parts of the country, it's a problem that has its roots 
in disadvantage in early childhood.
    Unnoticed in the recent discussions of inequality is the 
growth in the percent of American youth who are high school 
dropouts. If you actually measure it correctly, the high school 
dropout rate is increasing.
    At the same time, there are more genuine high school 
graduates who are attending college. So what you're getting is 
a phenomenon where you're finding a divergence, a growing 
polarization in American society, where the percentage of 
people who graduate from college is growing and so is the 
percentage of people who drop out of high school, and this is 
producing a shrinking middle class and a polarized society
    Gaps in educational attainment have increased between 
majority and minority youth. A large body of research 
establishes that investing in disadvantaged young children 
improves the productivity of the economy and, at the same time, 
reduces social and economic inequality.
    In the world of Washington, where I'm sure many times 
before this panel you've heard about tradeoffs, a policy of 
investing in disadvantaged young children is rare because 
there's no tradeoff between equity and efficiency, between 
fairness and economic productivity for these policies.
    How is it possible to avoid an equity-efficiency tradeoff 
that is so common, for example, if you look at tax cuts and 
many other aspects of American social policy? And it comes 
simply from what we understand about the early years exerting a 
powerful influence over the rest of the life of a child.
    I'm talking about the years 0 to 3, as well as the later 
preschool years, 4 to 5. Children raised in disadvantaged 
environments are much less likely to succeed in schools and in 
an economic and social life, and are much less likely to be 
healthy adults.
    The good news, I think--and there is good news in this body 
of evidence--is that there's a strong case that early 
environments can be enriched and that we can offset, at least 
in part, the powerful consequences of the accident of birth.
    Let me just summarize briefly some main points, and 
hopefully, in the discussion, we can return to these points.
    First of all, many major economic and social problems--such 
as crime, teenage pregnancy, dropping out of high school, 
adverse health conditions--can be traced to low levels of skill 
and ability in the population.
    A second point is that ability gaps between the advantaged 
and the disadvantaged open up very early in the life of 
children. And what we've learned and come to understand, in the 
context of a large body of research in economics, in 
neuroscience, and in psychology--is that life cycle skill 
formation is dynamic in nature: Skill begets skill; motivation 
begets motivation.
    If a child is not motivated and stimulated to learn and 
engaged early on in life, the more likely it is that when the 
child becomes an adult, it will fail in social and economic 
life.
    The longer we wait to intervene in the life cycle of the 
child or the young adult or the adult, the more costly it is to 
remediate, and the costs are staggeringly high.
    I would argue that many of the programs we currently have 
in place fail because they're not sufficiently well-funded--
adult job training programs, literacy programs, criminal 
rehabilitation programs. If we actually calibrate and 
understand the full cost of these interventions and what it 
will take, if we wait to remediate to put people at the same 
level of well-being, we would find a staggering gap between the 
costs of true remediation and the costs of early investment.
    In understanding these policies and understanding policies 
toward early childhood, it's very important that we should 
recognize the multiplicity of abilities.
    A lot of public policy discussion focuses on promoting and 
measuring cognitive abilities, IQ, in particular, as some 
measure of an achievement test. For example, the No Child Left 
Behind legislation focuses primarily on achievement test scores 
in the fourth grade, not looking at a range of other factors 
that promote success in school and in life.
    We know that cognitive abilities are important.
    What we've come to learn is that social-emotional skills, 
physical and mental health, perseverance, attention, 
motivation, self confidence, things that are sometimes called 
soft skills--and Senator Casey was referring in his remarks, 
may be not so well-measured--have been actually much bigger 
impacts.
    And when they are studied, they turn out to be equally 
important in their effects on social life as cognitive skills 
that receive so much attention.
    Motivation, perseverance, and tenacity feed into 
performance in society at large and even have been shown to 
affect scores on the very achievement tests that actually 
receive so much public policy attention.
    Early environments are major predictors of cognitive and 
social-emotional abilities that are important in life as well 
as crime, health, and obesity.
    This is a serious concern because family environments in 
the United States--and for that matter, many other countries--
have deteriorated in the last 40 years so that, in fact, a 
larger fraction of the workforce, the future American 
workforce, will come from families who are relatively more 
disadvantaged and that, by itself, will have substantial 
effects on productivity growth.
    The estimated slowdown in the growth of education is 
expected to cut substantially in half, the contribution that 
education has traditionally played in producing growth in 
aggregate economic productivity.
    Experiments support a large body of non-experimental 
evidence that adverse family environments promote adult 
failure.
    If society intervenes early enough, it can affect cognitive 
and social-emotional abilities and the health of disadvantaged 
children. Early interventions promote schooling, reduce crime, 
promote workforce productivity, and reduce teenage pregnancy.
    And as has already been stated, these interventions are 
estimated to have benefit-cost ratios.
    Early interventions have much higher returns, as we've 
studied them, much higher returns than later interventions that 
have received so much attention, for example, reduced pupil-
teacher ratios, public job-training programs, convict 
rehabilitation programs, tuition subsidies, or expenditure on 
police.
    A major refocus of policy is required to understand the 
life cycle of skill and health formation and the importance of 
the early years.
    So in summary, I would just refer to this figure, which I 
have used before, that I think should hopefully guide the 
discussions in today's session and in the future discussion 
over this bill and related legislation.
    If we look at what the rate of return to human capital 
that's already been put in evidence--Art Rolnick's study was 
mentioned--if we look at the rate of return to human capital 
investment at different ages, and we look at various aspects of 
where, if we spend a dollar, where in the life cycle we get the 
highest return for the first dollar, it's in the earliest 
years, the prenatal years, the early years of 0 to 3, and it 
continues to fall off.
    This does not mean that there isn't some return to 
following up. In fact, early investment makes later investment 
easier and reduces their cost. That's part of the reason why 
the return to early investment is so high, that it improves the 
capability of the child and makes the child economically much 
more viable and socially much more viable so that later 
remediation, which we know is very expensive if successfully 
executed, will not have to be undertaken. Thank you very much.
    [The prepared statement of Dr. Heckman appears in the 
Submissions for the Record on page 51.]
    Senator Casey. Thank you, doctor. I appreciate your 
testimony. I know you condensed that, but you did a great job 
of condensing, and we'll be able to further amplify and explore 
some of these as we do questions.
    We're joined by Senator Brownback. We want to thank Senator 
Brownback for joining us. Do you have a statement that you want 
to present now?
    Senator Brownback. No, I don't, Mr. Chairman. I do have one 
that I'd like to put into the record, and because I grabbed the 
mike, I want to say a welcome to the Governor of Kansas who is 
here and going to be testifying.
    Governor Sebelius is in her second term as Governor of the 
State, and has pushed a number of these issues aggressively, 
has been a very vocal and outspoken advocate, and I want to 
welcome her to the Committee, and look forward to her 
testimony, and I hope you all listen very carefully to what she 
has to say.
    [The prepared statement of Senator Brownback appears in the 
Submissions for the Record on page 56.]
    Senator Casey. Welcome, Governor, and thank you, Senator.
    Governor, you're next. I wanted to make sure that you had a 
little bit of an opportunity to catch your breath. We're 
honored by your presence here today.
    I wanted to--as you may have missed this when I was 
introducing--read biographical information right before you 
give testimony, instead of doing them all at once.
    I probably violated some rules, but they'll get over it.
    [Laughter.]
    Senator Casey. But I wanted to just briefly summarize some 
of your biographical information.
    Governor Sebelius was sworn in as the 44th Governor of 
Kansas in January of 2003, and just under 3 years later, Time 
Magazine named her one of the Nation's top five Governors, 
citing her work to cut waste in government and bridge the 
partisan divide.
    Governor Sebelius was reelected to a second term, as the 
Senator mentioned, in 2006, and under her vision and 
stewardship, programs and services for young children have 
increased dramatically.
    Last year the Governor proposed an increase in State 
funding for early childhood education, including the creation 
of prekindergarten pilot projects, which the Kansas Legislature 
approved.
    The Governor was elected chair of the Democratic Governors 
Association in 2006, and she also chairs the Education 
Commission of the States. She also serves on the National 
Governors Association Executive Committee, and I especially 
want to thank the Governor for her presence here today, but 
also for placing top priority on children's health insurance, 
something we're debating here with the S-CHIP reauthorization 
this year as part of your comprehensive plan, early care and 
education. It's an honor to have you here with us, Governor, 
and we'd be honored to have your testimony.

 STATEMENT OF HON. KATHLEEN SEBELIUS, GOVERNOR OF THE STATE OF 
                             KANSAS

    Governor Sebelius. Well, thank you, Senator Casey and 
Representative Maloney, for inviting me here today. Thank you, 
Senator Brownback, for those nice comments. I got a personal 
greeting out in the hall, and I appreciate that.
    It's nice to join these illustrious colleagues. Ms. Dichter 
from Pennsylvania and I have worked together on this issue with 
our fellow Governors, so I'm pleased that you brought your 
fellow Pennsylvanian here. She has a great story to tell about 
what's happening in Pennsylvania.
    I'm just, first of all, pleased that this is on the radar 
of Congress. I think that you've heard some eloquent testimony 
from Dr. Heckman about the early investment paying large 
dividends, and I think that has been demonstrated over and over 
and over again.
    If this were a hedge fund, I'd say put your money down 
right away because it will yield enormous returns. We are not 
as advanced as some States, in Kansas, but I would say we are 
on the road to a recognition that providing universal access to 
early quality childhood education is a very important 
investment for us to make.
    Kansas, right now, dedicates about 65 percent of our State 
budget to education, and the citizens, as Senator Brownback 
well knows, have a high value in education. They are willing to 
put that kind of money forward, they demand excellence, and our 
kids do pretty well, compared to children often around the 
country.
    Having said that, one of the things that we did recently 
was a study conducted by the Department of Education of 5-year-
olds--first time ever, tested 5,000 5-year-olds in Kansas--to 
see if they were school-ready when they hit school.
    Now, we have a relatively homogeneous population; we don't 
have some of the challenges that other Governors are dealing 
with so I think Kansas is an interesting benchmark. The kids 
test among the top ten in the country, wherever you go.
    Fifty percent of the 5-year-olds in Kansas are not school-
ready when they hit school, and that's a series of cognitive 
and social skills that make them ready to learn. So, if you 
figure that's the snapshot on Kansas, it's probably a benchmark 
that is potentially one of the highwater marks.
    I would suggest that I was fairly stunned with that result 
and what it tells me, as a Governor who is interested in 
education and understands that having an educated workforce is 
the key to our prosperity in the future; we are really not 
spending our money as wisely as we could and we're not 
currently preparing enough children to be ready to learn when 
they hit schools.
    So we spend millions of dollars once they hit school, 
trying to catch kids up, and a lot of them will never catch up. 
A lot of them are behind enough by the time they reach 
kindergarten, that they will never be as successful as some of 
their peers.
    Kansas has done a series of interesting things at the State 
level, starting with the tobacco settlement in 1999, where the 
Kansas Legislature dedicated 100 percent of those resources to 
children and then put together a working group who said it 
shouldn't just be children's programs, new children's programs, 
not replacement programs, but new children's programs, but it 
really should go to 0 to 5 and focus on investing in our 
youngest citizens, a series of healthcare and education 
initiatives.
    That work has been underway. We have the Smart Start Model, 
copied after North Carolina's very successful program, which 
looks at health and educationally-based early childhood 
programs and has initiatives going all over the State.
    When I became Governor in 2003, one of the things I 
confronted--and I would suggest that this is happening around 
the country, except in States ahead of us, like Pennsylvania 
which has solved this situation--is that the silos of early 
childhood education and childcare workers don't talk to one 
another and often are somewhat at war with one another which 
isn't very helpful.
    In Kansas, at least, 80 percent of our 4-year-olds are in 
out-of-home placement. If you go down to infancy, it's 55 
percent, so most children are not in their homes right now, and 
they are in a variety of settings.
    They are in home-based daycare, church-based daycare, 
school-based daycare, Head Start programs, early childhood 
education programs, an array of options, some of which are very 
good, very high quality; others are little more than, you know, 
advanced babysitting, and everything in between.
    So there is now a collaborative effort in Kansas to look at 
some standard-setting for all of those programs, and an 
agreement, whether the home-based child provider--we have them 
at the table, school-based programs at the table.
    Everybody is pretty much in agreement that we need 
curriculum-based opportunities for children, before they hit 
school, building readiness skills for school and getting kids 
ready, particularly to read and learn math.
    There needs to be a significant enhancement of training and 
pay for childcare workers, childcare providers, early education 
teachers. It's somewhat ironic to me that often we pay 
professors who are teaching Ph.D. candidates, six times as much 
as we pay someone who is dealing with a 3-year-old, but the 3-
year-old is going to be forming a lifetime brain capacity and 
the Ph.D. candidate, arguably, could be self-taught, probably, 
by that point.
    So, if you look at the sort of payment scale, we probably 
have it reversed in terms of the way we reward and acknowledge 
and pay educators.
    Enhanced training is a piece of the puzzle. People who deal 
with very young children, need additional skills, additional 
training.
    Another piece of the puzzle that's so very important is 
some quality-rating system so whether a parent is putting--
trying to choose a home-based center or a child-based center, 
they need a way to evaluate.
    Parents want to be thoughtful and have their children in 
the best possible opportunity, the best possible opportunity 
they can afford, but having some standardized evaluation 
system, I think, is enormously helpful.
    Again, I know that Harriet may speak about the Pennsylvania 
Stars Program, but that's in place.
    And I would just suggest that you look at early childhood. 
Those are components for a system.
    This isn't a one-size-fits-all. I think we need to have an 
array of programs. There will be some children who will be in 
out-of-home placement, a couple of hours a day, before they hit 
kindergarten; others need 12 hours a day, all-day services.
    Some will be in family settings; others will be in larger 
school settings, but there's no reason at all that there can't 
be some curriculum introduction, some quality rating, some 
opportunities for parents to be involved and really become part 
of those systems in the whole array of programs.
    We have significantly enhanced our investment in early 
childhood education, and my hope is that within the next 2 
years, we will have universal access.
    The most significant group at the table demanding an 
investment in this area is the business community. This is, I 
would suggest to you, a segment of the education system that 
business leaders have, at least in our state--I think 
Pennsylvania is the same; every place I look, it seems to be 
the same--have embraced and understand that investment in the 
youngest children, investment in giving skills so that these 
children are ready to learn when they hit school, and can 
actually keep up with their peers, and don't lose those skills 
over the summer, is significant.
    So we have a lot of programs that have leveraged private 
business dollars, and they're eager to step up to the table and 
invest, and I think that, again, that's a component you may 
want to look at as you look at some enhanced funding for early 
childhood education.
    A piece of this, I would say, also needs to have a 
healthcare component. If children are not healthy at 2 or 3 or 
4, they're not going to learn. If they are not healthy at 5 or 
6 or 7, they're not going to learn, but having an opportunity 
to do early checks--we have a very aggressive early system that 
identifies developmental disabilities and wraps services around 
kids.
    So, often, a 2-year-old who is identified as needing 
services is up to peer level by the time he or she reaches 
kindergarten. Not making that investment early on, I think, 
again, is a huge mistake because often that will save huge 
dollars in the long run and huge quality-of-life issues.
    Finally, I would just echo what Dr. Heckman has already 
said about the consequences of not acting. There are huge 
societal costs, everything from teen pregnancy to drug use, to 
dropout rates.
    Economists now say there is a million-dollar difference 
between a high school graduate and a college graduate, over the 
lifetime of a worker, and if we assume that having early 
childhood education, which proven in study after study, 
prepares one to go on in school, that's a huge benefit to not 
only each and every State, but the country to have that kind of 
economic generation over a period of time.
    We know that we will spend millions of dollars less in K 
through 12 school in remedial education if we have children who 
are actually ready to learn once they hit kindergarten. So not 
only is the dollar saved in societal costs, but I think they're 
saved in education costs that don't have to spent at a later 
date, trying to catch kids up, keeping kids out of being tagged 
as special ed kids or disruptive kids, or dropping out of 
school altogether at some point too early in their lives.
    So I'm pleased that I had a chance to take a brief look at 
Senator Casey's bill, and teaching 3- and 4-year-olds, and the 
kind of investment that you're suggesting we make. I think 
that's right on track.
    I would just suggest that having Congress look at investing 
in this early area--29 Governors this year proposed 
enhancements of pre-K programs. It's not Democrats and not just 
Republicans, but people in States across the country, are 
understanding that if we are going to have a successful 
competitive workforce, if we're going to have education systems 
that actually work well, we have to start at an earlier date.
    Children are already out of the house; they should be 
learning something and being prepared for school. Thank you for 
allowing me to join you and I'd be pleased, at the end, to 
answer questions.
    [The prepared statement of Governor Kathleen Sebelius 
appears in the Submissions for the Record on page 56.]
    Senator Casey. Thank you, Governor. We appreciate your 
leadership on these issues.
    Next, Harriet Dichter has been someone I have known for a 
long time. She went to law school at one point, but decided to 
dedicate her life to children.
    Right now, in our home State of Pennsylvania, she's deputy 
secretary for the Office of Child Development and Early 
Learning, covering two different departments, the Department of 
Public Welfare and the Department of Education.
    In this role she leads Pennsylvania's efforts to raise the 
priority level for early learning, a cause to which she has 
dedicated most of her professional career.
    Through appointments in the public, philanthropic, and 
nonprofit sectors, Harriet Dichter has focused on maternal and 
child health, early learning, and youth development programs 
and health insurance coverage for all children, and has been a 
leader in successful efforts to improve service systems in all 
of these areas.
    She currently serves on the Pew Trust National Task Force 
on Assessment and Accountability in Early Childhood, and also 
on the Council on Accreditation for the National Association 
for the Education of Young Children.
    And I've known her for many years and I've learned a lot 
from her, and I'm grateful for her presence here today and for 
her commitment to children. Thank you, Harriet.

 STATEMENT OF HARRIET DICHTER, DEPUTY SECRETARY, PENNSYLVANIA 
         OFFICE OF CHILD DEVELOPMENT AND EARLY LEARNING

    Ms. Dichter. Thank you very much, Senator Casey. That was a 
very gracious introduction, and thank you to the other Members 
of the Committee for having me today.
    Based on our experiences in Pennsylvania, there are really 
three points that I would like to share with the Committee:
    The first is that there really is no one silver bullet, not 
just one investment or program that works, and what matters, no 
matter what the program, is a common framework, high standards, 
high accountability, and sufficient investment to make a 
difference.
    Second, at least from where I sit at the State level, the 
Federal Government has not yet been sufficiently proactive in 
this area and has left too much for the States to do, 
particularly in areas of financing.
    Third, we need to have some continued focus on appropriate 
public-sector governance, in order to get good outcomes and 
efficient use of the resources we have.
    Now, first, let me say that we can no longer afford to 
consider childcare as only a way to get our parents working or 
that the quality of our children's learning experiences before 
they reach kindergarten or first grade is not a public 
responsibility.
    To advance the early childhood agenda, we do need a 
continuum of services--Professor Heckman referred to that--that 
assures the educational and economic benefits from early 
childhood investment.
    I think this is as true for early childhood as it is for 
any other system that we value like higher education or 
healthcare. This means that we can and should expect to make 
investments in programs with different names and labels--
childcare and prekindergarten are two that come to mind--and 
that we should expect to make our investments in children each 
and every year up to their entrance into school, and of course, 
continuing investment in them in the school years.
    In Pennsylvania, in fact, we do not focus on just one type 
of early childhood program. We do insist now that all of our 
programs get organized with certain commonalities: high 
standards, accountability, sufficient financial and other 
supports.
    For example, we recognize that childcare reaches the 
largest number of young children in our State. To that end, we 
have created a systematic approach to voluntarily improving 
quality. We call this Keystone Stars, and Governor Sebelius was 
kind enough to mention that, and that integrates research-based 
standards, improvement strategies, financial resources, and 
public ratings of our programs.
    Now, we recently had an independent evaluation of Keystone 
Stars, and what it has actually showed us is that we have 
reversed a 10-year decline in Pennsylvania in childcare 
quality.
    Part of how we've done that is we have managed to entice 60 
percent of our childcare centers into participating in this 
program.
    But again, childcare alone is not enough. This year we are 
seeking, in the State, to develop a new additional high-quality 
program for at-risk 3- and 4-year-old children called Pre-K 
Counts.
    This will be a targeted, highly-focused investment and will 
have immediate payoffs, we believe, in our school system, and 
of course, future payoffs in the academic and career 
achievement which will benefit children and the broader 
community.
    For exceptionally at-risk, very young children of very 
impoverished mothers, we have continued to expand our Nurse/
Family Partnership Program. What these programs have in common 
is a similar framework--high standards and expectations, 
accountability for results, and sufficient financial support 
for early childhood issues in different settings.
    So we cannot, again, afford a silver-bullet approach to 
early childhood development where you focus only upon one 
program, one financing stream, but we do have to have a common 
framework across these programs for our public investment.
    This common framework, I believe, does make a meaningful 
difference to children, and in fact, I believe it builds 
confidence from business and from parents all around the 
Commonwealth.
    In Pennsylvania we have a framework we have developed. 
There's a copy in my testimony, but let me just point out that 
the first element of this framework, again, is high standards 
and expectations for program quality, articulated for people in 
plain English; based on research and on experience; focused on 
the bottom line--good outcomes for kids.
    Secondly, there is the professional preparation and 
development and ongoing education of the teachers and 
administrators to whom we are delegating the responsibility for 
delivering these programs, in short, investment in accountable 
methods for assuring that the people and the programs are of 
good enough quality.
    It is not enough to tell our staff in these programs to 
achieve high standards; they need assistance in order to 
achieve them and to maintain them. This is part of the 
framework.
    Third, there is accountability for results, in a practical 
way, to help those people whose work is far outside of the 
early childhood field to see and understand the results that we 
are able to achieve for children.
    And lastly, in the structure that we use is financial 
supports that are linked directly and clearly to our standards 
that we articulate and that are made available at sufficient 
levels to get the job done.
    Now, the second point I'd like to make is the importance of 
shared and responsible public investment in these programs. 
Professor Heckman has made the case for improved investment.
    In Pennsylvania we have been working hard to improve our 
State investment in these programs to give people a feel for 
it. The Governor's current budget proposal, which is being 
actively debated as we speak, calls for an increase of about 
$200 million of investment in programs in my office, between 
our appropriations in education and public welfare.
    Now, when I take a look each year, as we start to build the 
State budget request, I continue to have a pretty high level of 
disappointment at the lack of improvement in our Federal 
financial streams for the early childhood programs.
    The established and dedicated funding streams in areas such 
as the Child Care and Development Block Grant and Head Start, 
are simply not keeping pace. Pennsylvania is using State 
resources, for example, to close the gap between those eligible 
for Head Start and funded at the Federal level, and those we 
have remaining in the State.
    This year we will invest $40 million of State money to 
serve Head Start eligibles in Pennsylvania. Additionally, of 
course, we continue to invest significant resources to really 
supplement and go beyond what's available to us through the 
Child Care and Development Block Grant, both for helping our 
working families with childcare subsidy and to build up 
Keystone Stars.
    In addition, our broad-based educational streams that can 
be used on a discretionary basis to support some of the early 
childhood programs such as those under No Child Left Behind are 
also not keeping pace.
    So while Pennsylvania has moved from what we estimate were 
20 percent of our young children in the Commonwealth with an 
opportunity to participate in a good quality program in 2003 to 
just over 30 percent today, this is possible only because the 
State commitment and the growth of our State dollars.
    And that simply is not right. All of us reap a benefit--
you've heard that from all the testifiers so far--when we 
invest in quality early childhood education that makes it 
possible for children to achieve in school and throughout their 
lives.
    We need to see progress made at the Federal level in 
improving our investment. This means we should stand by the 
established programs and also that smart proposals, such as the 
one that Senator Casey has advanced for preschool, should move 
out of the idea stage and into a funded reality.
    So, the Federal role is to help with financing at a level 
that makes a meaningful difference, to insist that States have 
meaningful standards and accountability based on nationally 
acceptable minimums, and to facilitate coherence across the 
Federal programs.
    When we crafted Keystone Stars and the proposed Pre-K 
Counts Initiative, we did turn to research-based evidence and 
we turned to other States' experience to learn what standards, 
accountability, and supports would produce quality results for 
our children.
    It is possible, I believe, to have a national baseline that 
does not interfere with the sensitive implementation of our 
State programs.
    This brings me to my third and final point which is the 
importance of organizing the programs and resources so that 
they genuinely make sense.
    Historically, public responsibility for early childhood 
education programs has been scattered and divided amongst 
different agencies and revenue streams, both at the Federal and 
State levels.
    I know that our families do not care what we call the 
programs that we offer to them. It does matter if the program 
is called Keystone Stars, Head Start, Pre-K Counts, or 
something else. As parents and, I believe, as taxpayers, people 
want to have confidence in the responsiveness and the quality 
of the services for their children, and they want to know that 
their public investments are made efficiently, and they do want 
them to be well leveraged.
    So in our State, we have chosen to take on some of these 
issues through our governance structure. My office is fairly 
unique in State government. We are part of both the Departments 
of Education and the Department of Public Welfare.
    Governor Rendell created this office in order to have 
efficiencies, to unify and integrate the early childhood 
programs of both agencies. The office does cover the waterfront 
for early childhood.
    We encompass school-based programs, community-based 
programs for children from birth through our full-day 
kindergarten initiatives. We have found that working across the 
two agencies does allow us to take advantage of the assets of 
both our human services frameworks and appropriations, and our 
educational systems and frameworks and appropriations there.
    At the same time--and I do have to stress this--we have a 
single staff and, as I described earlier, a very consistent 
framework that we use to systematically advance the work.
    So I think we have recognized and organized our resources 
in a new way and a creative way, fairly non-bureaucratic for 
State government, and our governance structure actually has 
tried to take into account, basically, the prior history where 
people split care and split education, and for us, we really 
have gone about trying to seek an alternative pathway to early 
learning that kind of recognizes the best of each of these 
value systems.
    We do have to be prudent public stewards. I'm acutely aware 
of that each and every day at work, but this approach to 
government does allow us an ongoing commitment to both 
excellence in terms of program quality and delivery, and to 
efficiency.
    So again, I want to thank you for the opportunity to 
present today and especially Senator Casey for the bill that 
you've introduced. We in Pennsylvania were very thrilled to 
read it because, of course, it represented so much of the 
history that you brought from your work in Pennsylvania, really 
seeking to be sensitive to the needs of working families and to 
recognize the tremendous benefits in quality for young children 
from early childhood investment. Thank you.
    [The prepared statement of Harriet Dichter appears in the 
Submissions for the Record on page 59.]
    Senator Casey. Thank you, Harriet, and I want to thank you 
and the Governor for your leadership on this. We were with him 
on Monday for a rally on the State Children's Health Insurance 
Program which is another major priority that we won't be able 
to address directly today.
    Finally, our fourth witness today is Douglas Besharov, and 
Mr. Besharov is the director of the Social and Individual 
Responsibility Project at the American Enterprise Institute.
    He is also the Joseph J. and Violet Jacobs Scholar in 
Social Welfare Studies at the American Enterprise Institute. He 
is a member of the faculty of the University of Maryland's 
School of Public Policy, teaching courses on family policy, 
welfare reform, evaluation and the implementation of social 
policy, while also serving as the project director of the 
University's Welfare Reform Academy.
    From 1975 to 1979, Mr. Besharov was the first Director of 
the U.S. National Center on Child Abuse and Neglect. Before 
this, he served as Executive Director of the New York State 
Assembly's Select Committee on Child Abuse, and he's authored 
or co-authored several books and articles, and he contributes 
to the Washington Post, the Wall Street Journal, and the 
American Enterprise Magazine.
    Mr. Besharov, thank you for being with us today, and we're 
honored to have your testimony as well.

    STATEMENT OF DOUGLAS J. BESHAROV, DIRECTOR, SOCIAL AND 
               INDIVIDUAL RESPONSIBILITY PROJECT

    Mr. Besharov. Senator Casey, thank you very much. Madam 
Chair?
    Vice Chair Maloney. Vice Chair.
    Mr. Besharov. Vice Chair, and Mr. Doggett, thank you very 
much.
    Well, I am delighted to be here, and I'm particularly 
delighted, given the comments of the last three speakers, 
because it encourages me to emphasize a point that I make 
towards the end of my testimony.
    First, let me say, to get it over with, I think the 
rhetoric about early childhood interventions is a little bit 
like hedge-fund rhetoric.
    Some hedge funds bring in a lot of money; some hedge funds 
go belly up. A key lesson is to give the States the ability to 
make their investments wisely by not directing their 
investments from Washington. This is a very important point 
which I'll return to in a minute.
    We talk about the successful returns on investment, but 
many early childhood programs are, at best, neutral to the 
future of children, and some are harmful, according to the 
literature, so we do have to be careful.
    Having said that, let me emphasize the structural issues 
because I think structure is important. Senator Casey, you used 
what we used to call a $50 phrase, ``high-quality.''
    The question is, how do we get there? And I'd like to 
emphasize structure because this is the Congress, not the 
States.
    I was struck by Secretary Dichter's program which I did not 
know about. Let me take the liberty of deconstructing what she 
said. She said we took the Federal money, which comes to us in 
different pieces with different rules, and bring it together at 
the State level, right?
    That's what we do, and we have to do that because of the 
separate funding streams that are very difficult to coordinate.
    So, I hope that in your legislation, as it works through 
the process, includes enough State flexibility and parental 
choice so that the States can achieve the kinds of quality 
goals that you want.
    Let me draw your attention to page 11 of my testimony. I 
think you have it.
    The story of the last 10 years is a dramatic increase in 
pre-K and preschool programs all over the country. There are 
now more children in pre-K programs in this country than in 
Head Start.
    In just a few years there will be more low-income children 
in pre-K programs than in Head Start. Now, that leads me to 
say, where is Head Start in this process?
    Take a look at Table 1, and you can see we've laid out the 
percentage of poor children in Head Start and other selected 
arrangements. The numbers change as you go up in income.
    About 48 percent of all poor 4-year-olds are in Head Start, 
but now there are almost 30 percent, 29 percent in pre-K 
programs and another 7 percent are in full-time childcare.
    I think that's why it's so important to coordinate or allow 
the States to have some coordination at the local level.
    Many of those mothers with children in Head Start are 
working; many are working full-time; many of the mothers whose 
children are in pre-K programs are working full-time. Often, 
they're working at night or at odd hours.
    So, a program that's going to meet their needs has to allow 
the States to build a comprehensive package around them, not 
say to the parents, okay, we'll give you this, now you go run 
around to the neighbor or whatever, and find something else.
    That's a giant challenge for the Congress, and I won't hold 
it against you if you can't address it because there are 
different committees.
    Fifteen years ago--I think it was 15 years ago, the 
Congress decided there should be childcare legislation. It 
seems sort of relevant that the legislation should come from 
the committees that had jurisdiction over children and 
childcare, but the Finance and Ways and Means Committees 
thought they should have some childcare legislation as well.
    And so for a number of years, the States and localities had 
the burden of four childcare funding streams serving 
essentially the same children. This is a giant challenge.
    Maybe you can't deal with it this year, maybe you can't 
deal with it next year, but if you have your choice in this 
legislation, the more flexibility you can give the States to 
work with these funding streams, the better.
    I'd like to make two other points: It is a tremendously 
complicated world out there. Some parents, especially Latino 
parents, do not particularly like centers. Some parents have 
needs for irregular hours. Some parents like neighborhood or 
family-based childcare; others want center-based care.
    Preferences seem to change between the time when a child is 
1, 2, and 3, and when a child is 4 and 5. Almost all parents 
seem to prefer center-based care for 4- and 5-year-olds, but 
for younger children, family-based care is preferred.
    Giving parents that freedom of choice--and I'll use that 
word, ``choice''--means that the framework of the Child Care 
Development Block Grant, which encourages parental choice 
through vouchers, is an important component of any flexible 
system.
    So, my first point is let the States have as much 
flexibility as you can give them, and let the parents have as 
much choice as they can be given.
    My last point is about this question of high quality and 
what goes in the black box, or what's in the hedge fund. 
There's a tendency to ignore the fact that within the field 
there are raging arguments about what are the best curricula.
    And the main reason, I think, why we've had so much success 
in the preschool pre-K movement is because there hasn't been a 
one-size-fits-all approach; it is because the States have been 
allowed to experiment with different curricula.
    Now, partly, I would therefore say that that has something 
to do with State flexibility, but the other part of this is, in 
this bill, and in all your efforts, I hope you will encourage a 
strong commitment to research and testing the best curricula 
and the best approaches to providing this care.
    In my testimony, I mention that the Department of 
Education, for the No Child Left Behind bill, has $200 million 
for research; Head Start has $20 million, and there's only a 
couple of million more for the rest of childcare.
    As we move forward, whether it is a universal system or a 
means-tested system, whatever it is--again, because not all 
hedge funds are created equal because testing different 
curricula is tremendously important, and because States have to 
know which curricula seem to work better than others--I would 
encourage you to make sure that there is sufficient funding for 
research and demonstration so that we can improve the quality 
of these programs and not just rely on the happenstance of 
whether one particular State or another comes up with the best 
curriculum.
    Senator Casey. I am going to interrupt for one second only 
because I was just told there is a vote underway, and it is 
about 5 minutes into it. I have to go, and I have no control 
over when the votes are so I have to leave. I will be back.
    The real chair, the Vice Chair, will be taking over until I 
come back, but I did not want to interrupt you. You still have 
time on your testimony, and my comments will not detract from 
that.
    I will be back--and also before I go I want to apologize. I 
think I was emphasizing the second syllable in your name. Would 
you pronounce it for the record so we get it right?
    Mr. Besharov. Oh sure, but it really does not matter. I am 
quite used to it. It took me a number of years to learn how to 
pronounce it myself.
    [Laughter.]
    Senator Casey. Thank you.
    Mr. Besharov. Bes-shar-ov.
    Senator Casey. Besharov, thank you, sir. And I apologize, 
but I will return. Thank you.
    Vice Chair Maloney [presiding]. Please continue with your 
testimony.
    Mr. Besharov. I am actually happy to go to questions and 
answers.
    Vice Chair Maloney. Well, I want to thank all of the 
panelists for their contributions today.
    I would like to ask Dr. Heckman a question. Your research 
is so important in this field. It is cited in news articles and 
other studies, and as I said earlier, you did a fantastic job 
at our conference.
    I would like to return to the chart that you talked about 
and you referred to in your testimony showing that the dollars 
you invest in the early years pay off dramatically in preparing 
our young people to compete and win in our global economy in 
the future.
    Yet, we lag behind other industrialized countries in 
publicly-supported preschool programs and childcare and, 
really, family support in every way.
    So I would like to ask Dr. Heckman, will the U.S. be able 
to remain competitive in a global economy if we do not make 
these investments in early childhood?
    Dr. Heckman. There is a lot of evidence. If you look at the 
slowdown in the rate of growth of college attendance, for 
example, that suggests that we are falling behind, and certain 
measures of workforce quality, we are finding--actually not 
``we,'' but a lot of surveys have found that, in fact, 20 
percent of the U.S. workforce is at so-called Level I, which is 
a level of illiteracy and innumeracy which makes people 
incapable of even reading or understanding the medication on a 
bottle of pills given by a doctor.
    If you go to Level II, which is not a high level of 
competence, we are close to 40 to 50 percent of the workforce.
    I think what is happening is that, of course, certain areas 
of the U.S. are highly competitive. Our country has a lot of 
incentives built in that keep it competitive. And we import 
people from other countries. We are a magnet for migration.
    On the other hand, the fact that we have this slowdown in 
the growth of the college attendance rate and a growth in the 
high school dropout rate, if you properly count it, means then 
that we are actually slowing down the rate of growth of the 
labor force quality which is a huge component in terms of a 
determinant of economic growth.
    The contribution of educational quality historically has 
been about .35 percent per year. The estimates are that if the 
slowdown continues--and it has been slowing down the last few 
decades, the last decade or so in particular--that we will cut 
that rate in half.
    So the rate of growth will actually be decelerated. So what 
will happen will be that we have a two-tier society. I mean, 
the society will have more uneducated people, more people less 
skilled, less able to cope, and then a companion highly-
educated society that will be integrated into the world economy 
but segregated from the rest of society.
    Now there are other ways to compensate for the high dropout 
rate, but I think it will affect our economic performance. 
Already we have heard stories from businessmen. Local 
businessmen will tell you how difficult it is to hire skilled 
workers, to get workers who are able to function as an ordinary 
high school graduate used to function.
    I think that impairs business productivity. So I think, 
yes, you could compensate for our slow rate in production of 
skill in various ways.
    Now what has to be shown--and I think this gets back to a 
point that many people have already made but I think we should 
emphasize it again--is that in many of these areas of public 
policy we take a very fragmented point of view.
    We look at early childhood in isolation from other 
policies. We look at different policies in isolation. What is 
happening is the dots are being filled in. We are understanding 
the connections.
    We are really understanding that a major determinant of why 
children are not going to college, for example, in the 
testimony entered in the record, a big concern is minorities 
are not going to college at the same rate as majorities.
    The gap, if anything, is widening somewhat. And you ask: 
Well, what is the major cause of this? Is it higher tuition 
costs? Tuition costs have gone up. That has contributed some 
role to college attendance.
    But the real factor is the gap in abilities of children at 
16, 17, and 18. And those gaps in abilities are opening up at 
very early years. And what, if anything, we are seeing is what 
demographers have called ``the great divide.'' That the 
``haves'' are actually investing more in their children. More 
educated women, even though they are working more, are spending 
more time in child development.
    They are having children later. They are having higher 
resources and investing in their children.
    The less-advantaged children--the children from less-
advantaged families are finding their mothers are also 
increasing the labor force participation, not as much, but 
certainly not the same growth in investment in those children 
and the resources spent on them as for advantaged children.
    So what will happen, I think, if we continue this 
trajectory, is that you will have a very competitive half of 
the economy or so and a very unproductive lower half which will 
be a source of social and economic problems we can compensate.
    But it seems like a very unwise strategy not to consider 
this source of inequality and its later real effects on the 
economic growth.
    [The prepared statement of Mr. Besharov appears in the 
Submissions for the Record on page 62.]
    Vice Chair Maloney. Thank you so much. That is a huge 
concern I would say to the Democratic Congress because the gap 
between the ``haves'' and the ``have-nots'' is growing. Under 
President Clinton it had come together a little more, and it is 
a huge matter of debate in conversation. We were talking about 
it yesterday at our Caucus meeting.
    Very briefly, what other strategies are out there to 
increase productivity and economic growth? And how do 
investments in early care and education compare to these other 
strategies?
    What other strategies are out there to help us achieve 
this, and how do they compare to investing in early education?
    Dr. Heckman. Well, for example, an emphasis that I would 
share, I think with many people, the other witnesses at this 
hearing, is that we should really take a unified approach to 
understanding how to develop human beings.
    If we do that, we then start doing a cost-benefit analysis, 
an evaluation analysis, of various other programs targeted at 
different stages of the life cycle.
    So for example, if we look at a very commonly considered 
program--increasing school quality, you know, reducing the 
pupil-teacher ratio--that's been studied, if you actually look 
at what the economic benefits are of just cutting the pupil-
teacher ratio by a significant amount, by the way, you will see 
real effects on the earnings of the kids. But if you count the 
costs, you actually get a negative rate of return as opposed to 
the very high rates of return that have been estimated by the 
premiere early child programs.
    If you look, for example, to job-training programs as they 
are currently funded, not as they could be funded, but if you 
look at as they are currently funded, for example, the Job 
Corps, which has received a lot of attention, the Job Corps, as 
a remediation effort to try to compensate for adverse early 
environments, basically had no return.
    A Labor Department study a couple of years ago done by 
randomized trial evaluations found that the Job Corps was 
actually not significantly producing any real benefit for the 
individuals. It wasn't harming them, but it was not helping 
them. And so that is disappointing, suggesting we have to spend 
more to really compensate for this kind of disadvantage.
    So if we look at an array of programs that are 
traditionally embodied in public policy, and we carefully do 
the cost-benefit rate of return analysis, what we find is that 
at current levels of funding, whether it is illiteracy programs 
for adults, convict rehabilitation programs, a number of other 
programs of that type, we find substantially lower returns than 
we do for early childhood investment.
    The reason I keep emphasizing, and others have emphasized, 
is this percolating quality: What economists like to call a 
multiplier. If you build the base, it becomes much easier to 
build later and to actually foster investment. So you can get 
very high rates of return to people who are very highly 
educated in early years, and we know, for example, that people 
who have high levels of ability, high levels of education, will 
continue learning much into later life.
    Those people who are less able receive less education, less 
early childhood stimulation, less stimulation in the early 
years; are much more likely to quit learning and to dissipate, 
and be much less likely to keep up.
    So in terms of other policies, though, policies directed 
toward disadvantaged children have much higher rates of return 
than returns on capital and other items. High quality 
investments have those high returns.
    Vice Chair Maloney. My time has expired and I recognize 
Congressman Doggett.
    Representative Doggett. Thank you very much. Thanks for all 
the testimony.
    Governor, I think the progress and the leadership reflected 
in your testimony, along with the recent very productive 
service of our colleague, Nancy Boyda, confirmed what my friend 
Dennis Moore has been saying, that there is really nothing the 
matter with Kansas.
    [Laughter.]
    Representative Doggett. I appreciate what you are----
    Governor Sebelius. I appreciate that.
    Representative Doggett [continuing]. What you have to say. 
And I realize that traditionally, the Federal role in education 
has focused on addressing some of the gaps that Dr. Heckman 
talked about. We have seen perhaps the biggest payoffs when we 
focused on Title I Schools or the mixed results on Head Start 
at addressing our most disadvantaged Americans.
    But I note that the title of the legislation you have filed 
is ``Prepare All Kids Act.'' We know that the benefits of 
quality early childhood education are significant for all 
children. I would like to proceed on the assumption that after 
a few more roadblocks are out of the way there will be 
something like the pioneering work that Congresswoman Maloney 
has done, and ask you to also focus on the challenges that our 
middle class children face.
    Usually these young children are the children of young 
parents who find that the cost of getting in a quality 
prekindergarten program may be as much as in-State college 
tuition would be, but they have not had the time to start a 529 
account or the other kinds of saving plans to get ready for 
that expense.
    We know that prekindergarten education would be significant 
to them. We also are aware of research that the learning and 
social gap between middle-income children and upper-income 
children is greater than the learning and social gap between 
middle-income and lower-income children.
    Lower-income children have access to a variety of programs 
through childcare vouchers and Head Start, and the various 
funding streams that are a problem that you referred to as well 
as targeted pre-K in 38 States. However, middle-income families 
often do not have access to anything unless they can put out 
the kind of money that I referred to.
    I would just like you to react to what we might do, any of 
our witnesses, to ease the burden on middle class families and 
assure more access to quality programs for our middle-income 
children.
    Governor Sebelius. Well, Congressman, I might take a quick 
shot at that, and then I have to apologize. I do have to leave, 
and I will leave this discussion to my learned colleagues.
    I think you are absolutely right that this is not about 
poor children only catching up. As I said, in the testing that 
we did of 5-year-olds in Kansas, 50 percent of the kids are not 
ready for school. Those are not 50 percent of the poor kids; it 
is 50 percent of all the children who live in our State, who 
for a variety of reasons, are not school ready which I think 
raises the issue then of making the investment at a much 
earlier time and actually having a more universal investment.
    What that does not mean is that every program, as Harriet 
has said and Mr. Besharov has said, has to look alike. I mean, 
we need an array of choices. We need an array of programs. But 
I think they need to have some common components, some 
curriculum-based, research-based studies; training and 
education for the professionals who are there with the kids; 
and really look at school readiness opportunities.
    There is no question at all that a lot of parents are 
struggling with affording quality childcare. I would just echo 
what Harriet has already said: States are really trying to fill 
the gap.
    The Federal commitment in this area has lagged 
significantly behind where the needs are. And so a lot of 
States around the country are not only looking at challenges of 
funding K 0912, but really accelerating that look to a much 
earlier child and trying to spread that throughout programs. 
And, fill in gaps.
    We put a lot of State resources this year, as Pennsylvania 
did, into early Head Start, and into Head Start, and into 
trying to--into pilot projects for pre-K, and to having parent 
rating systems.
    So we are trying to make it a much more universal system. 
But I do not think there is any question that all of our 
children are ready to learn. They are just not often in 
situations where they can be learning at that early age.
    Representative Doggett. Thank you very much, and thank you 
for coming here today to testify.
    Governor Sebelius. Thank you for having me.
    Representative Doggett. Before asking the other panelists 
to comment, I guess beginning with Ms. Dichter, I would just 
draw your attention to a study that you are probably familiar 
with, ``Enriching Children: Enriching The Nation,'' by 
columnist Robert Lynch at the Economic Policy Institute.
    It is the first study that I have seen that tries to look 
at the advantages of, as your bill suggests, preparing all kids 
with a quality prekindergarten education versus a targeted 
approach.
    His projection maintains that after a few decades of 
operation, we would generate--since this is the Joint Economic 
Committee--hundreds of billions of dollars in increased 
earnings by providing quality prekindergarten education, 
whether the Federal Government has a role or not. It could be 
provided through the States and other ways over a targeted 
approach.
    We would see almost $100 billion more each year as a result 
of a universal program over a targeted program as well as 
decreased criminal behavior, and other social benefits of that 
type.
    Given the way we calculate the economics of other 
interventions financed by the Federal Government, do you 
believe that the benefits justify the costs of implementing 
more than a targeted program for prekindergarten?
    Do you want to lead off on that, and then we can call on 
the economists?
    Ms. Dichter. Sure. I will start.
    I agree with the analysis that you have put forward, and it 
is actually that assumption and set of principles that has 
actually formed the basis for our efforts in Pennsylvania where 
we have tried to create a framework that can really lead us 
towards investment for all children.
    We do believe and agree that the data shows both--in the 
short term, actually, in issues of children at risk of school 
failure--that that issue is not confined to low-income 
children; that there are plenty of middle class children 
basically who, in fact, need early supports, basically, and 
will benefit from them in the near term, in terms of their 
schooling as well as this whole framework we have been talking 
about around economic competitiveness, which really drives us 
to say that ultimately where we have to get is opportunities 
for all children--basically, parents making choices for them, 
of course, about what they wish to do with them and the 
settings they wish to have them with. But really, the core of 
our work across the board has been to be smart at present 
around the limitations in the financial funding streams that we 
have and to understand that we may have to give some initial 
preferences, as we are developing our programs, to kids on the 
basis of economic issues but to create the programming and the 
framework so that we can really build towards this issue that 
we have been talking about which is all the children in the 
community.
    And again, you know, we see this very much in the context 
of the things that Dr. Heckman has talked about here in terms 
of our competitiveness, both at the State level and actually at 
the level of the country as a whole in the global economy.
    Vice Chair Maloney. Thank you----
    Mr. Besharov. If I may?
    Vice Chair Maloney. Sure. Certainly.
    Mr. Besharov. I do not do politics, and I know it is quite 
difficult for the Congress to do something just for poor 
people.
    We have a model that was developed with funding from 
private foundations and HHS that prices out different options.
    Fully funding just the childcare Developmental Block Grant 
costs about $75 billion at the cost of a pre-K program. And 
that is about a half or a third of the total cost of covering 
all 0- to 5-year-olds, and children in after-school programs.
    You could be talking here about a universal program for all 
preschoolers that would cost between $20- to $50 billion. 
Notice it is a very big range.
    My concern would be the following:
    We have a Student Loan Program that started out as a 
program intended for the most disadvantaged. I think most 
people who look at that program think the middle class is 
getting too much of the dollars, if you combine the tax 
dollars, the Pell grant dollars, and so forth.
    So I fully understand the rhetoric about universal access. 
I hope the process is very carefully designed to help the 
people in greatest need first, at least to give them the 
biggest bite of the apple as you are adding money.
    Otherwise, we could leave the poor out of this as we so 
often do.
    Vice Chair Maloney. Thank you. Ms. Dichter, you suggest in 
your testimony that the Federal Government--and actually 
Governor Sebelius made the same point--that the Federal 
Government can lend support in two key areas: creating a stable 
funding stream for investments by the States, and secondly by 
establishing quality standards.
    Can you elaborate? And Mr. Besharov, and Dr. Heckman, you 
can join in if you would like, but Ms. Dichter if you would 
begin, can you elaborate on what you think the appropriate 
Federal role is for supporting early childhood investments in 
these two areas?
    Ms. Dichter. Sure. Let me say on the overall financing side 
that we would very much like to see, we have some existing 
funding streams. I think people have talked some about them and 
the fact that we experience them at least at the State level as 
not having sufficient investment in them yet, leading us to 
make decisions under the Governor's leadership to really 
advance State level investment.
    Additionally, the bill that you and Senator Casey have 
proposed is very consistent actually with our thinking and our 
understanding of how we continue to grow investment strategies, 
and I think would work very well with existing funding streams.
    In terms of some of these questions around expectations for 
quality--in other words, where is it that we would wish to see 
basically some Federal emphasis and expectation to be able to 
support sound implementation--let me again say that I actually 
think in the context of the bill that has been proposed that 
bill does a really good job of identifying basically core 
components where we want to make sure that States are basically 
on track.
    But to reiterate, as I think people here know, from our 
point of view when we are talking about good enough to 
basically serve our children well and serve our economies well, 
we want to have a focus on who is the teacher in the classroom. 
That adult in the classroom with the children makes a 
significant difference. And her qualifications. And very 
importantly, her ongoing continuing professional development 
and education. Of course, the compensation for that all 
matters.
    I think people here have talked about the importance of 
curriculum. We have seen that actually in our independent 
studies that we have done of our own State-funded programs: The 
importance of basically having people to understand that they 
are going to make local choices around curriculum issues. That 
is a very big issue in our home State.
    We, as a State, would never tell anyone what curriculum to 
use, but people do feel and agree that it is our place to 
articulate clear standards basically and to show people how 
curriculum choices align against the standards.
    I believe there is an expectation basically in the 
legislation that you have put forward that people will make 
appropriate choices and will implement them.
    A broad perspective on child development. Again, I think 
that people here have spoken some about that. We understand 
that we have a lot to do for young children in terms of their 
language and their cognitive development, but in a broader 
context of their social and other development. Those things are 
consequential to their school achievement and to their lifelong 
achievement as well.
    So we would hope for an expectation at the Federal level 
basically that we would treat children in this age cohort and 
this age grouping basically as a whole child.
    Other are these kinds of expectations: ratios. Alright--it 
does matter, again, the quality of that interaction between the 
adults, basically, with very young children.
    Part of being able to understand this with this age cohort 
of kids, of course, has to do with keeping the grouping small 
enough basically and those ratios good enough.
    Then other issues I would just mention would be linkages, 
basically, to the rest of our human service system. People have 
talked about health care quite a bit today, and I know that is 
a big interest of everyone who is here to make sure that we are 
not building isolated early childhood programming, and that we 
are helping our families basically and the practitioners in 
those systems to understand the linkages and to be adept, 
actually, at promoting those.
    Because again, we need to be focused on the whole of the 
child's needs.
    Three other issues I would mention very quickly would be 
sufficient resources to be able to make a difference in terms 
of quality.
    Good transparency on accountability, which I do believe we 
can get to without sacrificing our big interests on child 
development.
    And finally, actually, the other area that I think is just 
very important that we do not talk about enough in terms of 
expectations for good outcomes for children is to understand we 
can have great program ideas. We can do all the things I just 
said around money and around establishing expectations, and 
create enough flexibility, but we have to pay attention to 
implementation and monitoring.
    Some of these issues that I have talked about are around 
building the capacity of excellence for the programs and the 
practitioners, and understanding that there is an interactive 
role, basically, on the funding side for how it is we go about 
monitoring and doing our implementation work so that we really 
end up, again, with excellence in terms of the program delivery 
and the outcomes for the families and the children.
    Vice Chair Maloney. Thank you. Would anyone else like to 
make a comment on the Federal role? Yes, Dr. Heckman.
    Dr. Heckman. I would just add--and I think I would not 
disagree and may be making a point that Doug Besharov already 
made in part--and that is that I think that the Federal role 
can be very powerful in the sense of trying to unify the 
various components that are now currently scattered around.
    I think it is intrinsic to various academic fields the way 
that knowledge is built up is to segment the life of the child, 
the life of the person, into different cabinet agencies and 
different groups. It is important to have unified policies to 
have some kind of unified agency--even call it a Human Capital 
Agency--some initiative that would simply put together the full 
life: Understanding from the early years into the adult life, 
to understand that integration.
    Then also--and to repeat a point that Doug made--I think 
the Federal role can also be very powerful in the sense of 
encouraging fostering evaluation of the State experiments.
    I am sympathetic to what he said earlier about the fact 
that we really want to allow these States to experiment, and I 
think you are in agreement, and I think everybody is in 
agreement with that because here if a hundred flowers bloom, or 
a thousand flowers bloom, we will probably finally find the 
best model. And I think we want to have that evolutionary 
process going.
    So the Federal Government can play a very powerful role in 
pulling the pieces together.
    Vice Chair Maloney. Thank you. Since you have been quoted, 
you can speak for yourself.
    Mr. Besharov. At the risk of sounding obnoxious, I would 
like to say something about what you might do if this bill gets 
to Conference, and people are grousing about Federal 
requirements.
    I hate to say I am so old, but I am so old that I used to 
work at HHS when it was HEW, when HEW was assigned the job by 
the Congress of coming up with Federal childcare Standards.
    Twice a week this group of people, heads hung low, would 
walk into this windowless office and argue about whether it 
should be 19 children and 1 teacher, or 11 children, or 
whatever, and so forth. And of course, it was a programmatic 
and political catastrophe.
    You will have to do it. Besides everything else, you are 
Democrats. I understand. But my two cents here is, while you 
are doing that, remember that most of the States are ready to 
run with this ball. They can be trusted. What they need is the 
tools.
    They need the research tools. Listen to how we have been 
talking. We have been comparing notes about research findings. 
They talk to each other more than they talk to the Federal 
Government.
    When it comes to a little bit of a compromise about that, 
sure, let the standards get a little weaker or whatever, but 
just make sure the research and the knowledge development is 
there so that the States can pick and choose, and so that we 
can improve the programs over the years without that kind of 
artificial straitjacket.
    Vice Chair Maloney. My time has expired. My colleague, 
Congressman Doggett.
    Representative Doggett. Well, I agree with your conclusion 
about not tying the States' hands. I think one of the main 
reasons that the States have made progress here is that for the 
last decade the Federal Government has sat on its hands and 
done nothing in this area.
    One of the issues that you raised, Ms. Dichter, that I was 
interested in is the idea of how we can better inform parents 
about what choices that they have.
    Is there any role that the Federal Government should play 
in encouraging the States, some of which are in the forefront 
like Pennsylvania and some of which are almost nowhere like a 
few of our States, to provide information on quality and set up 
those kinds of systems to give parents more informed 
information about the choices that they have?
    Ms. Dichter. Thank you. That is a very good question and, I 
think, important. I also, in answering that--because I think 
some of this leads to a framework that can be offered to the 
States basically through improved Federal leadership in these 
areas--I do want to say that I mentioned the issue of 
standards.
    Every State has been left on its own to build its early 
childhood program standards. We were one of the last in the 
country to build ours, so that we were able to take great 
advantage of what other States had been able to do.
    But as we were working on them, I really kept wishing that, 
in fact, there had been some models set forward basically from 
the Federal Government that would have made--our work was made 
easier by all those other States that were first.
    But the fact is I really wish that there had been some 
effort to basically build some of those models and to show us 
what some of that work would be.
    We did the same thing as we went to build our Infant-
Toddler Standards. So I think some of that principle actually 
can also apply in this very important issue that you raise 
around how it is we are really seeking to educate parents.
    As we all know, parents actually--for their young 
children--they want to do what is best. And as I think we also 
understand, parents are actually pretty lousy assessors of the 
quality of the early child environments in which they are 
enrolling their children.
    There is a lot of emotion there. It is very difficult for 
people to see this stuff. And as we have all talked about this, 
actually, there is a lot of professional expertise involved in 
delivering these programs. We cannot really expect the parents 
to have, in fact, absorbed all of that professional expertise.
    So I am on that question of sorting what the Federal 
Government might be able to do to make that easier. One would 
be one of the issues that have been raised around the research 
side: To sort of help us validate and to understand the pluses 
and the minuses of some of the systems' building we have been 
doing at the State level basically to try to produce better 
information and better connections with our parents.
    The other, I think, would be to understand, with the 
funding streams that we currently have, the Child Care and 
Development Block Grant, the way that Head Start is 
structured--again, what we are allowed to use off of the 
Elementary and Secondary Education money for the efforts in the 
preschool years.
    How it is we could actually achieve better flexibility 
basically in those pools so that we would be able to do some of 
this kind of integration that we have been able to achieve in 
Pennsylvania to make it easier for people to do--show people a 
firmer pathway basically for that.
    I think the other, again, is as we work towards--and 
obviously I am an endorser of us achieving new Federal funding 
streams in these areas--I think they would be a great benefit 
to try to create them, again with sensitivity, that they are 
going to leverage off of existing investments and not make them 
so categorical and so hidebound actually that we are not able 
to achieve some of these integration pieces that we are talking 
about.
    So I think there is actually a lot there that can be done 
basically in terms of the parent outreach process and these 
kind of building supports for making it more transparent to the 
families what we are offering to them and making more of it 
actually available that, again, is good enough for them to feel 
comfortable with the enrollment of the children in the 
programs.
    Dr. Heckman. But just to add to that, there is a lot of 
evidence that parenting programs, per se, are quite effective. 
So for example, in the Nurse-Family Partnership Act, which 
teaches young girls who are mostly high school drop-outs, there 
is a direct involvement with a parent.
    See, this is the notion of a comprehensive approach. 
Understand that if you offer these programs and say we are 
going to provide this information, many people will sign up. 
You know, there is no shortage of applicants. In fact, there is 
a great desire.
    So simply making them available and understanding that part 
of the process of building the child is also developing the 
parenting skills which I think really do differ greatly among 
different elements of society.
    So the Federal role could really emphasize this as an 
ingredient of a successful program, the more comprehensive 
notion.
    Ms. Dichter. Yes. I just want to--I did not emphasize that 
sufficiently. As I have said, we are actually attempting to get 
the Nurse-Family Partnership to really be a statewide 
initiative in Pennsylvania.
    Now again that is actually a very highly targeted program. 
It is at a very high-risk population level, and we actually now 
are up to about half of our counties being able to field the 
program. We would like to get that to all of our programming.
    We have tried to build in--again, this is my point around 
kind of a common framework for the work--regardless of what the 
setting is, or the pieces, we do think there is an essential 
connection in terms of good program design around the 
connectedness of an early childhood program to the parents.
    And so, some may be these highly targeted efforts, as 
Professor Heckman talks about, and we feel, in Nurse-Family, 
some may be classroom-based programs where, again from our 
point of view, all the adults in the children's life are 
contributing. They are making a huge difference.
    We think the data and the evidence is pretty clear around 
the power of the program-based interventions, but we in fact 
obviously do not want to have program-based interventions where 
the adults do not see themselves as partners, teachers, and 
practitioners together with the parents.
    So it is pretty essential how it is then that we educate 
parents and work with parents, and actually really have them 
engaged in the models.
    If we look more carefully at our work, again I think you 
will see that we have sought to embed that across all of our 
programming.
    Dr. Heckman. Let me just add to that. I think this comes 
back full circle to a question that was raised earlier. That is 
the issue of universality.
    The one thing we have learned is that there are huge gaps 
in the amount of parental involvement between highly-educated 
women and less-educated women. This affects the case for 
universality.
    You were citing the Lynch Study and so forth. I think there 
is really evidence that, if anything--and what the demographers 
have found very convincing--is that there has probably been a 
greater emphasis placed by both educated mothers and educated 
fathers in trying to enhance the well-being of the children. 
Understanding that early years are important, they read.
    That is an argument, I think, that works against 
universality in some sense, or at least says go to where the 
needs are the greatest, because where the great divide is 
occurring is among the less-educated women, the less-educated 
families, the ones with fewer resources that are not embodying 
these practices as much on a voluntary basis.
    So I would say that, in some sense, telling an educated 
mother the importance of reading to the child is redundant. It 
would be a waste of money. So you get real dead weight in the 
public expenditure.
    Whereas, going to the Nurse-Family Partnership Program and 
various other programs that are targeting disadvantaged people 
will have a very high return. There is always the other point 
which is that if you make a program universal, and you 
recognize that the middle class and upper-middle class kids, 
anything you give them--they will add to--could actually widen 
the inequality rather than shrink it.
    So I mean, you have to be very careful in thinking about 
the universality issue in this context; that, in fact, it could 
actually reverberate in the wrong direction.
    Vice Chair Maloney. That is a very, very important point. 
As a follow-up to my colleague's questioning of you, you have 
focused on the importance of really building systems and 
working together and really reforming the way we are putting 
these funds out to the States.
    But can you tell us in your experiences about the 
impediments that you have encountered to integrate early 
childcare education and health initiatives in your States or in 
your research.
    You talk about such an important need, but what is stopping 
us from going forward and making that happen in a more unified 
way that you have spoken about? Any impediments?
    Ms. Dichter. Sure. I will take a stab at that.
    A significant impediment continues to be in this work 
resource issues. I have mentioned this before. Finance and 
resources are fairly significant.
    I think, as you have heard from all the panelists today, in 
fact, while this work is complex, it is not altogether 
difficult to build a good framework that is sensitive to all 
the issues that we have been talking about in terms of meeting 
the needs of children, meeting the needs of parents, meeting 
community needs, and business needs. So that is a very viable 
piece.
    So one big issue really, I think, remains basically the 
need to actually get more resources on the table to be able to 
reach more children, and to reach them more effectively. That, 
perhaps, may be our No. 1 impediment.
    In my experiences, at least at the State level, I have 
found that it is possible within the State structures to 
organize the resource in a creative way.
    As I have mentioned, there are barriers, in terms of our 
Federal funding streams, from time to time that they do not 
work as successfully together as I would like to see them work, 
but I think we have shown that you can be persistent, 
basically, managing a bit around that.
    So I think what I would say about the big picture here is 
that one of the most consistent challenges, basically, that we 
have now is actually acquiring sufficient resources to have the 
reach that we believe the data tells that we should have around 
reaching young children and their families and their 
communities.
    Vice Chair Maloney. I would like to invite all of the 
panelists to send us in writing what the specific barriers in 
Federal funding streams are so that we can work on that as we 
go forward.
    We certainly want to help and support the work that all of 
you are doing.
    Mr. Besharov, and then my time has expired.
    Mr. Besharov. Well, I will just quickly direct your 
attention to page 12 of my written testimony, Table 2, where, 
using that model I told you about, we estimate the costs of 
these different programs.
    This is slightly controversial work so feel free to put 
plus or minus 10 or 20 percent confidence intervals around 
these costs, but other than that, I stand behind them ``1,000 
percent.''
    The problem, I would say, Congresswoman, is that some of 
these programs cost loads more than other programs. And it is 
quite difficult to integrate them without knowing how you are 
going to do so.
    Making Head Start full-time, full-year are some programs 
that would cost almost $21,000 per child a year. That is the 
national number.
    Subsidized childcare for essentially the same mothers and 
the same children costs about $8600 a year. And that is for the 
same number of hours.
    And our estimate of the cost of pre-K, full-time, full-
year, is around $13,500 per child.
    So when you try to mesh these three programs, you find 
yourself saying, well, we will do Head Start in the morning, 
which is very expensive, and we will try to find some less 
expensive childcare in the afternoon. How are we going to do 
this? Are we going to bus the children from one program to 
another? Their structures are different. Head Start gets its 
money directly from the Federal Government. The CCDF gets its 
money largely through a voucher system but not entirely.
    The pre-K world is a little bit more mixed with, I think, 
three-quarters of the dollars going through public schools. 
That is why it was so impressive to hear Secretary Dichter's 
organizational way of cutting through this. But here you have 
some other really concrete problems.
    Now, one answer is to make subsidized childcare as rich or 
as expensive as Head Start. Another way is to figure out why 
Head Start is costing so much, and decide which parts of that 
you want to universalize, which parts you want to make just for 
the most needful children.
    In my testimony, by the way, I point out the following: If 
present trends continue, pre-K programs are growing. They are 
winning a market test in the State and local area. The fact 
that you are holding this hearing says these programs are very 
attractive to parents.
    I have been criticized, but on this point, I think the 
evidence is clear. Parents are choosing pre-K programs over 
Head Start. Head Start's enrollment of 4-year-olds is going 
down. We have an opportunity to look at the future of Head 
Start and use Head Start for the kinds of things that Jim and 
Harriet were talking about which is focusing on the most 
needful children.
    You and I have been at meetings about teen mothers. In my 
testimony, I say we are beginning to see Head Start taking on 
ever younger children because it is losing the competition for 
4-year-olds. Let's take that as being inevitable, and let's 
look at Head Start as a super-powered program for the very most 
needful parents, and do what we have to, including spending 
more money, for those parents but not to universalize $20,000-
a-year for childcare.
    Senator Casey [presiding]. I want to thank your Vice Chair, 
Congresswoman Maloney----
    Vice Chair Maloney. I will be back.
    Senator Casey [continuing]. Who is going to be coming back, 
and I appreciate her taking over.
    I was just informed again that there is another vote. This 
is not my day in terms of timing, but that is not anyone else's 
problem.
    I wanted to have Harriet Dichter respond just for a moment 
on a couple of things in the limited time I have. I will try to 
get back as soon as I can, or we may have to temporarily 
adjourn and come back, but I wanted to get one question in to 
Dr. Heckman before I left.
    This whole question of a family environment in the 
development of the life cycle of skills and health information 
over time--and I think this is a solid bill, and we have got a 
lot of work to do on it yet, but beyond the bill, or in 
conjunction with this bill, what do you think the Federal 
Government should be doing in this area in terms of focusing on 
those priorities of helping to enhance that family environment 
and developing both cognitive skills and the noncognitive 
skills?
    Dr. Heckman. Well, I think--and this relates to the earlier 
question, actually. There is a powerful role in facilitating 
the knowledge integration process.
    You see, one of the barriers in many of these, and one very 
important barrier, is knowledge. The knowledge about child 
development is one that is rapidly changing.
    Policy has been slow to catch up with it. If you think 
about, for example, the importance of the early years on 
health, it was only about 10 years ago that an English 
researcher named David Barker pointed out a connection between 
adverse early environments and cardiovascular health in adult 
years.
    This is still a debate about my this. My colleague, Robert 
Fogel, at the University of Chicago works on this. It is an 
area where there is active research. The research is coming 
together, and it is inevitable that the policy is going to be 
conservative somewhat and try to filter this evidence and not 
just take the latest research item.
    But the Federal Government can play a very powerful role in 
facilitating this research and integrating it across cabinet 
level agencies. Forcing, for example, people to think in ways 
that are--or at least suggesting, anyway, that people should 
think in ways that we simply did not think about 40 years ago.
    I mean, 40 years ago everybody thought that IQ was the be-
all and end-all of achievement. You know, Head Start was 
considered a failure in 1969 because it did not boost IQ. Well, 
the Perry Preschool Program did not boost IQ either, and we 
consider it to be a very highly successful program.
    What we have understood in the last 20 years is that 
noncognitive skills matter. What we are only beginning to 
understand is how noncognitive skills feed into very important 
aspects of health.
    I'll give you an example of this point that concerns 
diabetes, an epidemic. We do not associate of diabetes with 
early childhood at all, but the fact is, we know that one of 
the biggest problems with patients, with diabetics and so 
forth, is that they know what they are doing is wrong. They 
know what the right protocols are.
    A lot of successful treatment has to do with self-control. 
Regulation. Things that I think one can shape at earlier years. 
So connections that have not yet been fully exploited where 
different cabinet agencies sort of see this part of the person 
or that. This needs to change.
    Medicine is changing radically now towards much more 
prevention, much more towards individuals taking self-control 
of their lives. That means you have individuals who have better 
capacities not only to process the information but to act on 
it.
    And that is a totally different perspective of medicine 
than I would say we had 30 or 40 years ago when the view was 
the doctor would cure somebody who had an exhibited problem, 
some problem that was demonstrated.
    Now we can prevent it. So I think what the Federal 
Government can really be creative in a way that the State 
governments cannot be, or have not been, anyway--and not to say 
the State governments have not been creative and thought about 
these issues--but it can facilitate the research on early 
childhood, the work at NIH, the work in various agencies that 
are devoted to different aspects, and really recognize that we 
really are dealing with the development of human capabilities 
and human potential.
    Putting that together would be powerful. I think that is a 
big barrier towards our knowledge and towards acting in a 
politically coherent way. Because the knowledge is new, and it 
needs to be distilled and put together in a consistent way.
    Senator Casey. Thank you, doctor. I have to take a break 
now. I think we should probably break. Now of the three of you, 
can all three stay, or do you have to go? Because I think we 
have still another half-hour if people can stay, but I realize 
you have got schedules.
    Mr. Besharov. We can stay.
    Dr. Heckman. Yes.
    Ms. Dichter. I can stay.
    Senator Casey. Three for three. I am sure you could use a 
break, by the way. You have been here for awhile. Thank you, 
and we will return but either Congresswoman Maloney or I will 
be here first, and we will continue. Thank you very much.
    [Recess.]
    Senator Casey. I think what we will do is to resume. I want 
to say again how much I appreciate everyone's patience.
    We even have some members of the audience left. That is 
especially impressive.
    Mr. Besharov. They are our friends.
    Senator Casey. But I wanted to try to go maybe another 15 
or 20 minutes, and please, if any of the three of you have to 
leave before that, I perfectly understand, and that certainly 
goes for the audience as well.
    But Dr. Heckman, you were sharing with me some rather new 
research. Instead of trying to have me summarize it, or 
headline it, if you don't mind just reviewing what we just 
talked about kind of off-stage, so to speak.
    Dr. Heckman. Well one item--there is a large project that 
we have been conducting in the last 2 years which is to go back 
and re-analyze and actually pull out of old data many findings 
that were never previously analyzed.
    So in particular, we have looked at the Perry Preschool 
data which have been much discussed but rarely analyzed by 
other people. There have been some recent reanalyses. But there 
are a number of issues, and they are technical issues, and I 
will not get into them, but what I was showing you was some 
very supportive information that confirms what I think is 
becoming a very central part of the argument for early 
childhood intervention.
    That is, that noncognitive skills, the socioemotional 
skills, the ability of individuals to be open to experience, 
conscientiousness, when we measure these--and it turns out that 
there are measures that are possible in the Perry Preschool 
data--you are finding substantial differences between the 
treatment and control groups.
    So that individuals who receive the Perry intervention, and 
compared to those who do not, exhibit a number of behaviors. We 
know that they are successful, but they exhibit a number of 
behaviors that now I think would be acceptable by the 
psychologists and understood in terms of modern psychometric 
standards but were not even thought of in the 1960s when the 
early Perry Program was done.
    It is consistent with the other body of evidence, that 
these programs are operating not necessarily through IQ, not 
even primarily through IQ, but also through socioemotional 
skills.
    Senator Casey. You were talking about conscientiousness, 
and what were the others?
    Dr. Heckman. Conscientiousness, neuroticism, openness to 
experience. Openness to experience in very important in terms 
of learning.
    If a child is open to experience instead of closing off and 
saying no, hiding out, they actually will learn more. And that 
shows up. So that is why it is interesting in the Perry Study. 
It is so contrary to what our thinking was 40 years ago, and 
why I think our processes we are undergoing are a real 
transformation of our understanding through the research and 
science and collaboration across different fields: That it is 
not just IQ, and that, in fact, Perry, as I said earlier, does 
not raise IQ, but it does raise a whole set of behavioral 
traits that seem to have lasting values as well as changing 
parental behavior which we also haven't studied as much as we 
should and we actually have evidence on now.
    So what is emerging is a much more subtle understanding of 
how people are formed and linkages which we didn't think 
existed even 10, 15 years ago. We now look for them, and in the 
old data sets, and certainly in the new data sets that are 
being collected on these questions, we are finding powerful 
evidence of interrelationships that we never thought existed. 
Health has traditionally been segregated off into one area and 
not being at all linked to cognition and socioemotional skill. 
We now understand noncognitive skills are so much a component 
of health that is really shaped in early years and through 
these devices and a direct effect of health itself.
    Senator Casey. Thank you very much. I guess sometimes that 
is counter-intuitive to a lay person, as you gently corrected 
me about 2 hours ago now, on how you measure. It's easier to 
measure, or the perception at least is that it is easier to 
measure IQ or something that has a numerical or data 
characteristic to it, whereas what you are talking about in the 
noncognitive is we are able to not only measure it, but we are 
also seeing that there are results?
    Dr. Heckman. Right. And I think that is very important. 
That is a fairly recent development. In fact, the whole field 
of personality psychology and economics now is a fairly recent 
development. But when people start pitting cognitive versus 
noncognitive skills, measures of openness to experience, 
conscientiousness and the like, you see very powerful effects 
at about the same level.
    For example, on teenage pregnancy, if you move a young girl 
from the bottom of the distribution to the top of the 
distribution, whether it is in cognitive skill or noncognitive 
skill, you are going to see essentially the same reduction in 
terms of the probability of having a birth out of wedlock.
    The same thing is true with even more powerful effects on 
crime. For example, the probability of somebody being in jail 
at age 30 is much more affected by noncognitive skills than 
cognitive skills. Cognitive skills play a role, and there was 
this whole literature, you know, by Hernstein, in particular, a 
very brilliant psychologist who made it his life story talking 
about the importance of cognition. And there is no denying it 
is important. But we have now measurement systems that put 
noncognitive measurements on the same footing as cognitive 
measurements, and they are very powerful predictors. There is a 
whole literature in psychology that shows that cognitive traits 
are predictive of who gets a job, who holds a job, and so 
forth.
    I mentioned that the high school dropout rate is rising. 
The reason why the high school dropout rate is rising, it turns 
out, is because about close to 20 percent of all new high 
school certificates are issued as GEDs. People who exam 
certify. They drop out of school. They take a test. And it 
turns out those people are then certified as high school 
graduates.
    That is a growing trend. It has been growing tremendously 
in the last 30 years. Now what is interesting about the GED--
and it is a powerful test of American social policy--it 
embodies the idea, the 1960s idea, that cognition was all 
important.
    It turns out that the GEDs are just as smart as ordinary 
high school graduates who do not drop out. Yet they earn the 
wages of dropouts. They cannot hold a job. Many sectors in the 
U.S. military will not take the GED.
    They are people who, basically, are wise guys. They are 
smart, but they cannot hold a job. They cannot sustain an 
effort. And it is the dimension of human performance which has 
been neglected in public policy, but think of it now. One out 
of every five new high school graduates is a GED. And in places 
like Florida and New York, it is closer to 25 percent. And that 
is among the native population. This is not just an immigrant 
phenomenon.
    Those people showed low levels of noncognitive skill, high 
levels of cognitive skill. That is something we did not know 
much about 15 years ago, and now we do. So it is again this 
evolving process which makes it difficult for policy analysis 
because the process keeps changing a bit.
    You know, we are learning, but the basic core factors are 
being put in place on how human beings are developing.
    Senator Casey. And all the more reason why the Federal 
Government needs to help with the research in terms of 
aggregating it and keeping it focused on those kinds of 
results.
    Dr. Heckman. And integrating the arms that it currently 
funds. NIH has a very powerful role to play, actually, in 
shaping some of the educational policy in ways that normally we 
do not think about. But NIH has a whole section on early 
childhood. It has a whole section on child development.
    It is just rare that the knowledge that is distilled there 
and supported there gets implemented into policy and education 
and health, even though it is NIH. It has got a health 
component.
    Senator Casey. Right.
    Dr. Heckman. There is too much segmentation. So you are 
right. The Federal Government can play a huge role in tying 
these pieces together and helping facilitate and distill this.
    Senator Casey. I want to have our other two witnesses 
comment on that but also the programmatic aspects of this. 
Because one of the difficulties here always is taking good 
research and good data and other kinds of important information 
and making sure it not only gets into legislation, but then the 
implementation is pretty difficult. I know you have seen it at 
the State level. I don't know if you have any response to that, 
either of you?
    Ms. Dichter. I do want to emphasize actually what Professor 
Heckman has said; that one of the core tenants I think we have 
seen in early childhood over time has been an understanding, by 
people trying to shape the investment in the policy, that you 
can't go off to extreme in either the role of cognition and 
language or in these worlds of what we talk about sort of self-
regulation and approaches to learning--basically, in ordinary 
English--these traits like curiosity, persistence, and so 
forth, initiative, and so on.
    In fact, one of the pieces that I think has been at the 
heart of a lot of the thinking about where we have to end up in 
early childhood is the balance between these pieces for young 
children and an understanding in the field that sometimes, I 
think, has been difficult for people to accept who are outside 
of the early childhood world, who get all hung up that the 
program is only about one dimension or one aspect, basically, 
of the young child's development.
    And having said that, I actually would point to that is 
probably an area where we are still at the Federal level.
    I agree with Professor Heckman that it would be better to 
see, in terms of the places where resources are available, 
basically--certainly to the States--more integration of that 
knowledge; and sort of more acceptance actually; and promotion, 
basically, of those kinds of points of view, in terms of the 
shaping of the funding streams and the sort of directives, do's 
and don'ts, basically, and restrictions in terms of the 
resources that we see.
    I can give, actually, an interesting and specific, perhaps, 
example of this that we have encountered under the Child Care 
and Development Block Grant where there are currently set 
asides where States are expected appropriately to reserve some 
of their funding for work to benefit infants and toddlers.
    As you know, and as you have championed, we have been going 
about to try to really make the Nurse-Family Partnership a 
statewide initiative in Pennsylvania. And we have got the idea 
that we would be able to use our Child Care and Development 
Block Grant funds as part of our funding strategy. But we 
learned actually when we went to get our Federal approvals for 
it that that really was not going to be the case.
    The way the fund was being seen in the Child Care and 
Development Fund was that it was too far afield from the 
original principles.
    Now we did not see it that way. We found an alternative way 
in terms of how we would disburse some of our financing for the 
program, but I think that is a concrete example basically where 
there was a body of evidence that we thought was pretty clear 
basically about why that was an appropriate support.
    We thought it was related actually to the core purpose of 
the Act and would be appropriate. We learned that there was not 
really that integration of, basically, the knowledge and the 
understanding in at least the same way that we were able to see 
that.
    So that is perhaps a concrete that we probably should be 
working a little bit more around these broadened understandings 
of the Federal funding streams to be able to facilitate, 
basically, this kind of knowledge base and understanding that 
we are not going to do well in terms of the outcomes for young 
children if we just get really highly siloed.
    At the same time, you know and I know that you are a good 
believer in this too; we have to be able to structure the work 
so that we can talk to people about the gains that we are 
achieving with the programming.
    That is obviously a very big thing. We are so far past the 
point of being able to justify an investment on a moral basis. 
It is the right thing to stand by children.
    So, I do not want that to be hurt at all of saying that 
understanding we ought to have a broad-based understanding of 
kids' development means that we shouldn't end up without 
accountability on the other side--both in terms of Federal 
expectations and when we are then reserving resources to the 
States basically to take leadership--to have the expectation 
that we should, in a very practical way, be able to show people 
what gains we are achieving, in fact, in local communities for 
children.
    Senator Casey. Right. And that is one of the jobs of 
government and government programs to be able to justify their 
costs.
    As Harriet knows, I have spent the better part of a decade 
as a fiscal watchdog in State government, so I was ever 
critical of programs that were not working. But unless you can 
justify them and you can pay for them in a way that is 
reasonable and fiscally responsible, people will not support 
them.
    So we have the hurdle of--with this legislation, if it is a 
new program technically under the umbrella of the Federal 
Government with new appropriations. So we have got to be even 
more cognizant of the challenge of not just introducing it but 
also making sure we justify the spending.
    Mr. Besharov, do you have something to add to that? I was 
going to ask another question, but go ahead.
    Mr. Besharov. I think I am the designated ``Yes, but,'' so, 
yes, but. I do not have a view about this, but I have sat at 
meetings where the mix was a little different.
    I have heard very senior expert child development experts 
say the following:
    In the most perfect world, we want to do the whole child, 
but we have 7 months. We have a couple of hours in the program 
and only about 20 minutes a day--after kids get their coats 
off, they get fed, and so forth.
    Senator Casey. We are trying to get it beyond 7 months.
    Mr. Besharov. Yes. Low-income children, especially African 
American children who are one standard deviation below in many 
of the developmental categories, are the children we are 
talking about. I have heard many people say we just do not have 
the tools or the time to address the whole child.
    And that is why there is so much interest, I think, among 
some professionals, not all--and I am not taking a position 
here, just telling you--for focusing on cognitive development 
because it feels to some of them, some people, that that is the 
pressing need within the constraints of what can be done in 
such a short period of time.
    And you touched on that, which is: What are the limits of 
changing a program? It just may not be possible to do 
everything the first decade.
    Senator Casey. Doctor?
    Dr. Heckman. Let me disagree. Only because what we have 
learned is the interrelated nature of these skills.
    So for example, when we look at how cognition is produced, 
a child who is able to pay attention, who shows 
conscientiousness, is learning a lot more.
    So even if our goal is to focus only on cognitive outcomes, 
we also want to foster other outcomes. And the same thing would 
be true of mental health and physical health. A sick child, a 
disabled child, and so forth cannot easily learn.
    So I would even say if we pick one target and we choose 
that, which is a different issue, I would say to maximize 
performance on that target we might still understand that we 
want to have the whole package, not just focus on cognition.
    My interpretation of why cognition receives such attention 
in current debates is that many of the people who advocate its 
primary learned 30 years ago that IQ was determinant of 
everything. You know, it's just recently, 13, 14 years ago, we 
had a best seller called ``The Bell Curve'' that claimed that 
IQ was a powerful determinant of socioeconomic success. And 
there is no question it is.
    But the point is that there are other determinants as well, 
and we now know how to integrate them. So I would respectfully 
disagree with you on this point.
    Mr. Besharov. You are not disagreeing with me. My point was 
only: There is an argument.
    Dr. Heckman. Right.
    Mr. Besharov. So let's narrow the area of disagreement. I 
carefully said: On this one I am not taking a position. But 
there is an argument out there, and it is not right wing versus 
left wing. There is an argument about what to do first. And 
that is what is such a challenge about a Federal program.
    Ms. Dichter. But I think I actually just want to chime in. 
I actually think if you go back down to where the programs are 
happening, basically, and you mentioned, well, it only turns 
out to be a short period of time, a day, that the children are 
learning whatever, if you actually look, children are in 
programs. They are in these relationships over time. In a very 
practical sense I actually think, you know, as people may say--
and do understand and accept--language acquisition is really 
important for the young child, the young learned, and is 
obviously a big impact in terms of all these things we care 
about during the school years.
    But if you look at any of the different ways that people 
are thinking around interacting on that, all of these other 
traits that Professor Heckman is talking about come in in a 
very practical sense to how people are working with young 
children around language acquisition.
    So I think there is a little bit of--not trying to set 
these issues up too much against each other--the point being 
that I think everyone has been trying to make--and I do think 
that Senator Casey's bill sort of gets to in terms of how it 
talks about domains of development--is, again, there is a 
continuum here that you are dealing with an entire child, 
basically, in whatever setting you are in that the adults here, 
of the very young children, have a need to be educated and 
sensitive in terms of how they are interacting with the kids 
around things we do know are valuable traits as adults: our 
social skills and interactions. Those kindergarten teachers 
talking about kids' school behaviors that they need to see as 
they are entering the classroom for children to be able to be 
successful, basically. That those are all things that really do 
get well packaged together.
    And it may be that we talk more publicly about one aspect 
of the outcome again, then another aspect, but to really 
understand that, you know, for the people that are sort of out 
there at the forefront of this war, they actually have been 
schooled in a way to see all of this as one continuum, the 
whole of the child, in order to get, again, what I do think 
people see as the eye on the prize here.
    You know, kids who are able to be successful as adults, who 
make good economic contributions, and who fit into this bigger 
picture issues that we have touched on some here, which really 
has to do with our overall economic competitiveness and how we 
are managing and maintaining that.
    Mr. Besharov. Okay, I will try it again.
    I know you have a question. I will make this very short. So 
it is not like we have broad agreement about K-12. It is not 
like No Child Left Behind gave us the answer. And we all agree.
    There is no reason why 3- and 4-year-olds should generate 
the same agreement about what the intervention is. I subside.
    Senator Casey. I just have a final comment, unless someone 
walks in here to keep us going, but I know people have to run.
    I think this legislation is essential for all the reasons 
that you have stated. Even when there is disagreement, I think 
there is more common ground here than not.
    But I also think, in addition to this, there is a whole 
menu, a whole list of things the Federal Government has either 
got to do better or got to start doing. And we can't talk about 
any of these issues--about the health and development of a 
child and the learning of a child--unless you are really 
committed on State Children's Health Insurance Program. That is 
why $50 billion over 5 years is, in my judgment, a small down 
payment on keeping a child healthy, but also having economic 
growth and good employees and all the rest down the road.
    We have a debate in the Farm Bill. I am on the Ag 
Committee. There are some people who want to jettison or 
shortchange nutrition. That would be a big mistake in terms of 
all the things we are talking about here.
    Head Start, the Women, Infants and Children's Program, 
Quality childcare, I mean the list is long. But there are some 
people in this town who frankly don't give a damn about a lot 
of these programs and do not really care if we make the right 
investments.
    And as long as someone tells me that we have got $100 
billion on the table for the upper scintilla of our economic 
stratosphere with very few Americans benefiting to the tune of 
$100 billion in one calendar year, as long as that is the 
reality in Washington, we can find a lot more time and energy 
and dollars, frankly, for these things we talked about today.
    So we are going to--I am going to, and I am sure others 
will join me--repeat ourselves until we are blue in the face on 
this. Because to get a message through in this City you have 
got to say it over, and over, and over, and over again. So you 
are all going to hear from us again, and we want to hear from 
you. But we are grateful for your time here today, your 
testimony, the expertise, and experience that you have brought 
to these issues, and your persistence. As I said to someone 
earlier, kind of off-stage, laboring in the vineyards, to use a 
phrase from long ago, but we need that because this legislation 
and this agenda, even when there is disagreement, is not going 
to be the subject of many sustained successes unless we really 
stay persistent.
    So we have got a long way to go, but I am honored by your 
testimony and your presence here. Thanks very much.
    This meeting is officially adjourned.
    [Whereupon, at 1:45 p.m., the hearing was adjourned.]
                       Submissions for the Record

=======================================================================

[GRAPHIC] [TIFF OMITTED] T8106.001


    I want to thank my colleagues, Senator Bob Casey and Congresswoman 
Carolyn Maloney for taking the initiative to hold this hearing on an 
issue of long-term national consequence. We all recognize that an 
educated society is a healthy and successful one, and American 
education must start with quality early care and preschool.
    In the stock market, they tell you to buy low and sell high. Most 
economists would agree that the same can be said of early childcare and 
education. With the right investment by Federal, State and local 
governments, the stock of our future generations will pay off in a very 
big way for the health of families and our economy.
    Quality childcare improves employee productivity and reduces 
absenteeism and employee turnover. Affordable, quality care and 
preschool has been shown to promote female labor force participation, 
increase parent productivity, and keep parents in the workforce.
    Children who participate in high-quality preschools are more likely 
than their peers to graduate from high school and enroll in college. 
They are less likely to be in special education classes, become 
pregnant, engage in criminal activity as teenagers, or pursue other 
risky behaviors like smoking.
    Successes extend into adulthood, with higher earnings and 
employment rates, lower crime rates, and less reliance on public 
assistance.
    Unfortunately, quality care and preschool are not available to all 
of American families. Even for middle class families, quality childcare 
can be a tremendous burden. Center-based care for two young children 
can cost $20,000-$26,000 annually. That is equal to about 40 percent of 
the median income for families with children.
    We do not expect parents to shell out tens of thousands of dollars 
for education for school-aged children. We should not expect them to 
spend $20,000 a year on quality care or preschool. Our children should 
be receiving the best education and the best care from day one, not 
just when they enter kindergarten.
    Federal assistance to middle and lower class families is 
dangerously inadequate and we must begin to tell working parents that 
we want them and their children to succeed. Only one in seven children 
eligible for childcare assistance through the Child Care and 
Development Block Grant currently receives assistance. The current 
level of funding for Head Start, the Federal Government's largest 
commitment to preschool education, is sufficient to serve less than 
half of the eligible population.
    The families who could most benefit from high-quality care and 
education--and the children who are most at risk of engaging in 
behaviors that will be very costly to society--are least able to afford 
high-quality programs.
    In New York, 29 percent of 4-year olds are enrolled in State-funded 
preschool programs. But only 1 percent of 3-year-olds are enrolled. And 
New York is on the better end of the spectrum for early education 
programs--12 States don't have State-funded preschool programs for any 
ages and 24 don't have any programs for 3-year-olds.
    Government assistance can help to close the gap between what 
parents can afford and what high quality programs cost so that more of 
American children can participate in the highest quality programs from 
New York to Kansas to California.
    I want to thank Senator Casey and Congresswoman Maloney once again 
for their leadership on this issue. And we are all very grateful to our 
fine panelists, especially Professor Heckman in from Chicago and 
Governor Kathleen Sebelius from Kansas.
    I am looking forward to learning from our witnesses today how we 
can support early learning programs and assist our families in getting 
the best care and education for all of our nation's children.

                               __________

           Prepared Statement of Senator Robert P. Casey, Jr.

    Good morning and welcome to the Joint Economic Committee Hearing, 
``Investing in Young Children Pays Dividends: The Economic Case for 
Early Care and Education.'' Thank you all for being here. I want to 
give special thanks to Senator Chuck Schumer, our Chairman, and 
Congresswoman Carolyn Maloney, our Vice Chair for the privilege to co-
chair this hearing with you, Congresswoman Maloney. I also thank you 
for introducing my bill, the Prepare All Kids Act of 2007 in the House 
this week. I look forward to working with you and your colleagues to 
pass this bill in the months to come.
    We are also very fortunate to have an outstanding panel of experts 
with us this morning whom I will introduce in just a moment. I want to 
thank each of you for taking the time out of your very full schedules 
to be here with us today.
    It is truly an honor to preside over this hearing today--there is 
no issue more important to me as a U.S. Senator, or for that matter as 
a father and citizen, than the well-being of our children. This morning 
we are here to examine the value of early childhood investments. And I 
believe what we will find is that there really is no smarter investment 
we can make.
    I have long been an advocate for investing in our children. During 
my tenure as Pennsylvania State Auditor General and later as State 
Treasurer, I led efforts to make childcare more affordable for low-
income families and to place a higher priority upon early childhood 
programs in general. It is a privilege to be able to carry this 
commitment to the U.S. Senate and continue my advocacy for children on 
a national level.
    Last month, I introduced a bill, the ``Prepare All Kids Act of 
2007.'' This week, as I mentioned, Rep. Maloney introduced it in the 
House, along with Representatives Allyson Schwartz and Maurice Hinchey. 
The primary goal of the bill is to help states provide high quality 
prekindergarten programs that will prepare children, and particularly 
low-income children, for a successful transition to kindergarten and 
elementary school. Too many children--especially economically 
disadvantaged children--are entering school behind their more 
privileged peers. And many times, these lags persist into adulthood and 
are never reversed. We can do something about this.
    Why should we invest in high quality early childhood development 
and education? Well, for one thing, it's the right thing to do for 
children and families. But decades of research tell us it also makes 
sense from just about every other angle. From a purely monetary 
standpoint, the evidence overwhelmingly supports the economic value of 
investing in high quality early education. According to one study, we 
save $17 for every $1 we spend. Dr. Heckman, a Nobel Laureate in 
Economics and great leader in this field, has done tremendous work on 
the benefits of early childhood investment. I look forward to his 
testimony about why it is so important--and cost-effective--to invest 
in children, particularly economically disadvantaged children, as early 
as possible.
    Here are just a few of the benefits from early childhood 
investments that the research shows.

     High quality early education and development programs 
significantly improve children's outcomes. These children are more 
likely than their peers to graduate from high school and enroll in 
college. They are less likely to be in special education classes, 
become pregnant, engage in criminal activity as teenagers, or pursue 
other risky behaviors like smoking and drug use. Research from landmark 
studies on the Chicago Child-Parent Center and the Perry Preschool have 
documented these findings with multi-year longitudinal studies.
     High quality early education programs have a positive impact on 
state and Federal budgets. Children who participate in high-quality 
preschool programs have higher employment and earning rates as adults, 
and rely less on public assistance. Revenues are increased and spending 
on public assistance programs, special education and other remedial 
programs are decreased. Lower crime rates lead to less spending on 
prosecutions and incarcerations.
     High quality early education strengthens the economy. Children 
who attend high quality preschool not only have cognitive gains, they 
have non-cognitive gains in qualities like perseverance and motivation. 
All this results in a more productive workforce. Those workers are able 
to perform complex tasks, learn new skills and adapt to changes 
quickly, and generate ideas for how to make improvements to the 
productivity of the workplace.
     Investing in high quality childcare assistance also strengthens 
the economy. The importance of high-quality, affordable childcare for 
promoting female labor force participation, increasing parent 
productivity and keeping parents in the workforce is well documented. 
The impact is particularly significant for low-income mothers. One 
study found that single mothers who received assistance paying for 
childcare were 40 percent more likely to be employed after 2 years than 
similar women who did not receive such assistance.

    This morning we will hear about the programs that are most helpful 
to children in early childhood. One of these is prekindergarten. Most 
states have either begun or are on the way to developing 
prekindergarten programs. One of our witnesses, Governor Kathleen 
Sebelius, will talk about the tremendous work the state of Kansas is 
doing in expanding its new prekindergarten program as well as creating 
a comprehensive early childhood system. It is so important that we 
streamline early childhood programs so that services are not duplicated 
and we are able to reach all the children who need early enrichment the 
most.
    In Pennsylvania, the new Pre-K Counts initiative will provide 
approximately 11,000 3- and 4-year-olds with voluntary, high-quality 
prekindergarten that is targeted to reach children most at risk of 
academic failure. Harriet Dichter will talk about this exciting 
initiative and the work she and Governor Rendell are doing in 
Pennsylvania to streamline and coordinate services for at-risk children 
and families from birth throughout childhood. I'm very proud of the 
fact that Pennsylvania has a model program for the Nurse Family 
Partnership program. This is a critical program for young mothers and 
infants--one in which we need to invest much more.
    We cannot truly help children without helping their families--I 
think that's a theme we will hear throughout this morning's testimony. 
We know that a large number of disadvantaged children are being raised 
by single mothers and these mothers need support. Working families need 
our support.
    Now I know we run into a discussion about money whenever we talk 
about early childhood investments. I think it is a disgrace that this 
Administration has cut funding for critical programs like Head Start 
and subsidized childcare. And we need a separate funding stream from 
the Federal Government to support prekindergarten in the states--one 
that does not cut into existing early childhood funding streams. I 
challenge anyone who claims we cannot afford to invest more in early 
childhood programs. Clearly, this Administration has provided tax cuts 
to millionaires and multi-millionaires and billionaires. A recent 
report out of the Center for American Progress puts the annual total of 
the 2001 and 2003 tax cuts at $400 billion. That is $400 billion a 
year. In 2008 alone the value of the tax cuts to households with 
incomes exceeding $200,000 a year is projected to be $100 billion. My 
bill calls for an initial investment of $5 billion, increasing to a 
maximum of $9 billion a year. We don't have a money problem. We have a 
priorities problem.
    States need our help. The ``Prepare All Kids Act'' provides this 
help--with conditions and matching commitments from states. Grounded in 
research and best practices, my bill provides a blend of state 
flexibility and high quality standards that will serve children well.
    One of my priorities in drafting the Prepare All Kids Act was to 
provide support, not only for prekindergarten--but also for children in 
the earliest years--and to also help single parents and working 
families. That is why I created an Infant and Toddler Set Aside in my 
bill which will provide funding for programs that serve children from 
birth through age 3. And that is why I established an additional carve-
out to for extended daily hours and summer programs--so that working 
parents can have high quality options for their children in the after 
school hours and summer. Children should not suffer low quality care 
because their parents have to work.
    What it boils down to is this--it's just plain common sense. We can 
pay now or we can pay later. But if we pay later, we will pay much more 
and the returns will be much much less. And in the process, we will 
have robbed untold numbers of children the right to live the lives they 
were born to live.
    I look forward to the testimony this morning and encourage my 
colleagues to stay for questions and even a second round of questions 
if time permits.

[GRAPHIC] [TIFF OMITTED] T8106.002

  Prepared Statement of Representative Carolyn B. Maloney, Vice Chair
    Good morning. I would like to thank Chairman Schumer for 
encouraging us to hold this hearing to examine the economic benefits of 
investing in high-quality care and education for the children of our 
nation.
    This is the second in a series of hearings that the Joint Economic 
Committee will hold as Democrats in Congress work to develop policies 
for the 21st Century that help families balance the competing demands 
of work and family responsibilities.
    I am honored to co-chair this hearing with Sen. Casey, who has 
provided leadership on this issue for many years in his home state of 
Pennsylvania and now in the U.S. Senate. I am pleased to be the lead 
sponsor in the House of Representatives of his ``Prepare All Kids Act 
of 2007'' which is designed to help states expand their pre-K programs 
and childcare services--a goal that we both believe is critically 
important to our nation. More than a quarter of a million 4-year-olds 
in New York State would be eligible for the programs created through 
this bill, including 100,000 children who would qualify for free pre-K.
    At Speaker Pelosi's National Summit on America's Children last 
month, a compelling body of research was presented that makes clear 
that early intervention improves children's lives and eases the burden 
on public resources. With the limited public resources we currently 
have, we get the biggest bang for the buck by investing in our children 
before they even go to school.
    Estimates show that the return on investing in early care and 
education is between 7 to 18 percent annually. If this were a stock, 
all of Wall Street would be buying.
    Children are our most precious resource and the success of our 
nation depends on their ability to achieve their full potential. Early 
care and education fosters higher labor force participation and 
earnings, increases future productivity and economic growth, and helps 
maintain our ability to compete in the global economy.
    Quality childcare can help businesses' bottom lines by improving 
worker productivity, reducing absenteeism, and lowering turnover. 
Estimates show that employee absences due to childcare breakdowns cost 
U.S. businesses $3 billion annually.
    But there is a shortage of affordable childcare around the country, 
and especially in New York City. More than half of all women with 
preschool-age children in my district are in the workforce and 
desperately need help finding childcare. Many childcare providers in 
low- and moderate-income areas operate out of their homes. In the House 
of Representatives, we passed a bill which included an amendment I 
sponsored called ``Kiddie Mac''. Kiddie Mac encourages lenders to offer 
mortgages on low- and moderate-income housing with licensed childcare 
facilities, in order to help increase the supply of day care 
facilities.
    The Federal Government can also play a role in ensuring quality 
childcare by establishing minimum standards. Children need to be in 
safe environments that promote healthy development and lay the 
foundation for future success in school. Children in quality care are 
found to have better language and math skills, and have fewer 
disciplinary problems. But many states do not set adequate standards 
for childcare quality, including mandating low child-teacher ratios or 
requiring teachers to have training in early childcare education.
    I want to thank our distinguished panel of witnesses for being here 
today and I look forward to their testimony about setting our children 
on a path for success early in life.
Prepared Statement of Dr. James J. Heckman, Recipient of the 2000 Nobel 
Prize in Economic Sciences and the Henry Schultz Distinguished Service 
 Professor of Economics, University of Chicago, American Bar Foundation

 Investing in Disadvantaged Young Children Is Good Economics and Good 
                             Public Policy

                       THE ARGUMENT IN A NUTSHELL

    I. Many major economic and social problems such as crime, teenage 
pregnancy, dropping out of high school and adverse health conditions 
can be traced to low levels of skill and ability in the population.
    II. Ability gaps between the advantaged and disadvantaged open up 
early in the life of the child.
    III. Life cycle skill formation is dynamic in nature. Skill begets 
skill; motivation begets motivation. If a child is not motivated and 
stimulated to learn and engage early on in life, the more likely it is 
that when the child becomes an adult, it will fail in social and 
economic life. The longer we wait to intervene in the life cycle of the 
child the more costly it is to remediate to restore the child to its 
full potential.
    IV. In analyzing policies directed toward children, we should 
recognize the variety of abilities.
    V. Much public policy discussion focuses on promoting and measuring 
cognitive ability through IQ and achievement tests. No Child Left 
Behind focuses on achievement test scores in the 4th grade, not looking 
at a range of other factors that promote success in school and life.
    VI. Cognitive abilities are important for socioeconomic success.
    VII. But socioemotional skills, physical and mental health, 
perseverance, attention, motivation, and self confidence are also 
important for success in life.
    VIII. Motivation, perseverance and tenacity feed into performance 
in society at large and even affect scores on achievement tests.
    IX. Early family environments are major predictors of cognitive and 
socioemotional abilities, as well as crime, health and obesity.
    X. This observation is a major source of concern because family 
environments in the U.S. and many other countries around the world have 
deteriorated over the past 40 years.
    XI. Experiments support a large body of non-experimental evidence 
that adverse family environments promote adult failure.
    XII. If society intervenes early enough, it can affect cognitive 
and socioemotional abilities and the health of disadvantaged children.
    XIII. Early interventions promote schooling, reduce crime, promote 
workforce productivity and reduce teenage pregnancy.
    XIV. These interventions are estimated to have high benefit-cost 
ratios and rates of return.
    XV. Early interventions have much higher returns than other later 
interventions such as reduced pupil-teacher ratios, public job 
training, convict rehabilitation programs, tuition subsidies or 
expenditure on police.
    XVI. A major refocus of policy is required to understand the 
lifecycle of skill and health formation and the importance of the early 
years.

[GRAPHIC] [TIFF OMITTED] T8106.003

[GRAPHIC] [TIFF OMITTED] T8106.004

[GRAPHIC] [TIFF OMITTED] T8106.005

[GRAPHIC] [TIFF OMITTED] T8106.006

[GRAPHIC] [TIFF OMITTED] T7461.003


    Today's hearing focuses on the economic case for investing in early 
care and childhood education. I would like to welcome our witnesses to 
today's hearing, especially Governor Sebelius from my home State of 
Kansas, and look forward to listening to the witnesses' testimony.
    Economic data from a host of Federal agencies and independent 
research clearly shows that the path to economic success in our nation 
is based on marriage, strong families, work, and education. Education 
is an important determinant in achieving higher incomes and greater 
wealth. The question for today's hearing is what role does early care 
and early childhood education play down the road, not just in the 
initial year or two after a child enters the traditional education 
system? The question is important because it has become increasingly 
common in today's changing work and family environments for children to 
spend a significant amount of time in childcare. Over half of our 
children under the age of 5 have mothers who are employed and 63 
percent of children under 5 have regular childcare arrangements.
    There are many who will want to jump to the conclusion that early 
childhood education has a positive impact on children and the more 
money we spend the better off we will be. I would caution my colleagues 
that the easy answer is not always the right answer.
    Head Start serves more than 800,000 students per year and during 
the 2004-2005 school year, State governments spent almost $3 billion on 
early childhood education.
    Is this investment producing the desired results? The data suggest 
that the economics of early childhood care and education are uncertain. 
It is difficult to measure adequately the impacts--particularly the 
long-term impacts--of early childhood programs. Most evidence suggests 
positive short-term impacts that fade-out over time. These fade-out 
effects are likely the result of children attending substandard 
elementary and secondary schools and growing up in disadvantaged home 
environments.
    Some comprehensive, small-scale intervention programs have produced 
positive long-term impacts whereby the benefits to society far outweigh 
the costs. However, it is uncertain what effects would result from 
replication of such programs on a larger scale and in a 21st century 
setting.
    Investing billions in our children is laudable, even desirable. 
More desirable is seeing our investment pay off for those children, not 
just in the first couple of years of formal education, but over their 
lifetimes. Improving economic conditions for disadvantaged children (or 
all children, for that matter) requires a comprehensive approach, 
including parental support, a positive home environment, and high-
quality elementary and secondary education.
    I look forward to the testimony and to a constructive dialogue on 
what we can do to leverage our investments in early childhood education 
to insure that the positive impacts do not ``just fade away.''

                               __________

     Prepared Statement of Hon. Kathleen Sebelius, Governor of the
                            State of Kansas

    Senator Casey, Congresswoman Maloney, members of the committee, I 
appreciate the opportunity to visit with you today about the importance 
of early childhood education to our children's success and our nation's 
long-term prosperity.
    All Americans know the power of education to change lives and 
expand opportunities. That's why the guarantee of a quality public 
education has always been such an integral part of our nation's promise 
to its young people, and why we're seeing states making significant new 
commitments to K-12 schools.
    Kansas, for example, is dedicating $1 billion in new resources over 
4 years to our K-12 schools in order to ensure every child, in every 
school receives a quality education. And we've undertaken audits to 
ensure these new resources are spent efficiently, as well.
    But too many children are entering school without the basic skills 
they need to succeed in kindergarten and beyond. This problem was 
brought home to Kansas policymakers by a recent survey which revealed 
that less than half of children start kindergarten fully ready to 
learn. This ``achievement gap'' affects children of all backgrounds, 
but most often holds back poor and minority children.
    Ninety percent of a child's brain development occurs before the age 
of 5, and children who attend early childhood programs are far more 
likely to enter kindergarten ready to learn, more likely to read at an 
appropriate grade level and more likely to go on to graduate from high 
school. That's why education during the early years is crucial in 
helping children acquire the tools and skills they need to succeed in 
kindergarten and beyond.
    But children who start off school behind their peers are more 
likely stay behind throughout their school lives and into adulthood, 
meaning they never reach their full potential. This costs states money 
in terms of spending on remedial classes and programs, which are less 
effective and cost-efficient than early learning efforts.
    There are social costs as well, especially in reduced wages for 
workers who aren't ultimately as successful as they would have been had 
they been able to take advantage of the full opportunities of their 
education. The cost of not continuing education beyond high school 
alone is immense, with the Census Bureau reporting a college graduate 
is expected to earn roughly $1 million more over a lifetime than 
someone with only a high school diploma.
    For every dollar we invest in early childhood education, studies 
show we can save upwards of seven future dollars--perhaps much more--by 
having fewer juvenile offenders in our prisons, fewer Americans on 
public assistance, fewer teen pregnancies and a workforce more nimble 
and prepared for an ever changing world. One study estimated an 
investment in early childhood education could raise the GDP by half of 
a percent by 2050, while saving $155 billion in costs from crime and 
social problems.
    Other studies that have tracked students over long periods of time, 
such as the Connecticut Longitudinal Study, show that children who 
receive instruction from an early age do better in school and in life 
than those who do not. That study focused specifically on reading, and 
showed that problems learning to read at an early age lasted throughout 
their school lives. Additionally, these students were more likely to 
become teen parents and three times as likely to be unemployed than 
students without similar reading issues.
    What this tells us is that we can help lift children up and expand 
their opportunities through investments in early learning which close 
the achievement gap that currently keeps too many children from 
achieving their full potential.
    This isn't just an issue in Kansas--it's a national problem, one 
that requires a national commitment to early learning efforts such as 
pre-K.
    That commitment is unfortunately lacking. Currently, Head Start is 
only serving 5 out of every 10 eligible children, while Early Head 
Start is serving only 3 out of every 100 eligible children. Huge 
numbers of children are being left out, yet while the reason cited for 
this lack of commitment is budgetary, we end up paying more down the 
road when the children who are left behind need remedial education, 
additional job training or worse.
    In the absence of a full Federal commitment, the states are taking 
it upon themselves to invest in early childhood education. This year, 
29 Governors proposed increased investments in pre-K and other early 
learning programs. This is 11 more than the previous year, with the 
total investment of these proposals exceeding $800 million and 
providing early learning opportunities to more than 100,000 3- and 4-
year-olds.
    These proposals show the building momentum for a national 
commitment to early education, and I'm proud to say that Kansas is one 
of the states that increased its commitment to young children this 
year, just as we've done over the past several years.
    We started in 1999 by devoting Kansas' share of the tobacco 
settlement to children's programs, specifically early childhood 
education. Smart Start grants have been given to communities for a wide 
range programs focused on the well-being of children from birth to age 
5, with $8.4 million of these grants expected to be made this year 
alone.
    These efforts were continued and enhanced when I took office. For 
the first time, we brought stakeholders together in what had previously 
been a disconnected and disjointed system of Head Start programs, 
childcare centers, home care and school-based efforts.
    Previously, there was little if any interaction between these 
groups. No one had talked to each other, there were no common standards 
and little cooperation. We now have a clear goal and a group of 
stakeholders in the public and private sectors, including key business 
leaders, who are the driving force behind expansion of early learning.
    In 2006, this coalition won a victory when Kansas legislators 
supported my recommendation to increase funding for early childhood 
education, including the creation of pre-K pilot projects around our 
state. In six of our largest counties we funded early learning 
classrooms where children received instruction and guidance from 
trained, qualified specialists.
    Due to the success of these projects, the effort was expanded in 
2007 through an additional investment of $3 million, bringing the total 
to $5 million, and we expect upwards of 600 children to receive an 
opportunity to close that achievement gap and start off school at or 
above grade level--an opportunity they likely wouldn't have otherwise 
had.
    But as I said before, this pre-K effort is not an isolated 
program--it is part of a broad based approach to early childhood 
education, one supported by business leaders and educators alike.
    As the culmination of a 2-year planning process, we've created the 
Kansas Early Childhood Comprehensive Systems plan. This plan was 
developed using the stakeholders we brought together several years ago 
and is based on the best practices that have been shown to improve 
community, school and family influences on a child's school readiness.
    This strategic plan gives us a road map for the expansion of early 
childhood learning efforts over the next 3 years. Its first year 
focuses on pre-K--which we're addressing in part through the pilot 
projects. The plan calls for the expansion of access, the development 
of curriculum-based programs and an increase in professional standards, 
items all stakeholders agree on.
    It also calls for the creation of a quality rating system for 
childcare, so parents can feel confident their child is receiving 
instruction from a qualified early learning professional, and an 
education campaign to inform parents about the importance of school 
readiness.
    And while it isn't usually thought of as part of early learning, 
our strategic plan also calls for every child in Kansas from birth to 
age 5 to have health care. There is a clear connection between the 
health of a child in her early years and the success of that child 
later in life. Insuring every child would allow them access to cost-
effective preventative care that will help keep children healthy and in 
school, rather than sick and at home or in a hospital.
    These coordinated efforts will have significant and lasting 
benefits in Kansas, just as similar efforts can have a positive impact 
on our nation.
    That's why I'm heartened to see an interest on the part of Congress 
in making a national commitment to early learning. States are making 
progress, but we can't do it alone.
    As Senator Casey's ``Prepare All Kids Act of 2007'' points out, 
``State-funded preschool is the most rapidly expanding segment of the 
United States educational system, but in many States a lack of stable 
funding poses an enormous threat to the provision or continuation of 
high quality preschool.'' Many of the states that don't offer early 
learning opportunities have populations that would benefit from it the 
most, which is why the targeting of help to low-income communities--as 
is done in the proposed bill and in Kansas--is critical to closing the 
achievement gap.
    The proposed legislation demonstrates an understanding of one of 
the challenges of offering high quality preschool opportunities--
professional development. Teaching 3- and 4-year-olds is different than 
teaching older children. They have specific needs and there are 
specific ways that teachers can help their minds grow. But this 
requires special training, which we're seeking to ensure in Kansas, 
just as this bill would promote nationwide.
    I'm also pleased to see the bill includes requirements for 
prekindergarten teachers, but would add my hope that Congress does not 
create another unfunded mandate. Many states do not currently have the 
educational programs in place to help early childhood educators become 
better providers, which is why the aforementioned support for 
professional development is so important.
    I do want to point out that early childhood programs, particularly 
pre-K, cross traditional agency boundaries. Our state's Department of 
Commerce, Department of Education and social services agencies are all 
involved in a collaborative effort in this area, and I want to make 
sure Congress recognizes the cooperation that is required to 
effectively provide early learning opportunities.
    It's important that any legislation promotes community-based 
programs as well as school-based efforts, just as we've done in Kansas. 
This is again because pre-K isn't just an education issue, but a 
social, health and economic issue as well. The costs borne across the 
spectrum that result from a lack of quality early learning 
opportunities can just as easily become benefits, but only if we have a 
coordinated approach to the issue.
    Finally, one aspect that is missing from this proposal is parental 
involvement to the degree we're seeking in Kansas. There needs to be an 
education effort to inform parents on the importance of early learning. 
But more importantly, parents need to know that the program they've 
chosen for their child is staffed by qualified teachers and has an 
appropriate curriculum. Parents need to have the peace of mind that 
comes from knowing their child is in a learning environment that will 
help her develop the knowledge and skills needed in school and life. 
We're doing that in Kansas through a quality rating system and I would 
recommend looking at a similar system for programs supported through 
Federal grants.
    Yet above all, while Federal funding for early childhood programs 
developed by the states would help expand early learning, there are 
several non-monetary principles agreed upon by Kansas parents, 
educators, social service providers and early learning advocates that 
should be followed by any Federal effort.
    Any comprehensive early childhood program should ensure all 
children have health insurance and access to medical providers.
    Each early childhood care and education system should coordinate 
all birth to five efforts across the education, social services and 
advocacy spectrum, and mental health and social-emotional development 
must be fully integrated into the system, as well.
    Parents should have access to the resources they need and should be 
well informed about issues of childhood health, development, and 
education.
    And finally, any early childhood system should strengthen families 
to help them develop and utilize both intellectual and material 
resources to prepare their children for school and life.
    Young people face a range of challenges, but education has the 
remarkable ability to arm them with the knowledge and skills needed to 
overcome these challenges. A Federal commitment to early childhood 
education will give countless young Americans the start they need to 
succeed in school and in life. It pays dividends far in excess of the 
cost, by reducing the need for remedial programs, increasing worker 
productivity, and reducing the number of young people who turn to crime 
and those who see their horizons limited by poor choices and abandoned 
dreams.
    I again appreciate the opportunity to speak with you today to 
reinforce the importance of making a national commitment to early 
learning, not just for the sake of our children, but for the sake of 
our nation's long-term prosperity.
    Thank you for your consideration and I look forward to working with 
you to expand early learning opportunities throughout the nation so 
that we can close the achievement gap and create a brighter future for 
us all.
                               __________
  Prepared Statement of Harriet Dichter, Deputy Secretary, Office of 
   Child Development and Early Learning, Pennsylvania Departments of 
                      Education and Public Welfare

    Good morning, Senator Casey, Representative Maloney, and members of 
the Joint Economic Committee. Thank you for today's opportunity. I am 
Harriet Dichter, Deputy Secretary for the Office of Child Development 
and Early Learning of the Pennsylvania Departments of Education and 
Public Welfare. Improving the national track record for both 
investments and outcomes for young children is essential to both our 
short and long term competitiveness. The educational and economic 
payoffs from a systematic investment in early childhood education are 
compelling--we have far more evidence of the return on investment in 
this arena than in many others of significant public investment.
    Based on our experiences in Pennsylvania, I have three points to 
make today:

    1)There is no one silver bullet, not just one investment or program 
that works. What matters, no matter what the program, is a common 
framework of high standards, accountability and sufficient investment 
to make a difference.
    2)The Federal Government has not been sufficiently proactive in 
this area, leaving too much to the states to do, especially on 
financing.
    3)Proper public-sector governance needs to be a focus to assure 
good outcomes and efficient use of public dollars.

    First: We can no longer afford to consider childcare as only a way 
to get parents working, or that the quality of our children's learning 
experiences before they reach kindergarten or first grade is not a 
public responsibility. To advance the early childhood agenda, we need a 
continuum of services that assures the educational and economic 
benefits from early childhood investment. This is as true for early 
childhood education as it is for other systems such as higher education 
or health care. This means that we can and should expect to make 
investments in programs with different names and labels--childcare and 
prekindergarten are two that come to mind--and that we should expect to 
make investments in children in each and every year up to their 
entrance into school (and of course continuing investment in the school 
years).
    In Pennsylvania, we do not focus on just one type of early 
childhood program. We do insist that all of our programs get organized 
with certain commonalities: high standards, accountability, and 
sufficient financial and other supports. For example, we recognize that 
childcare reaches the largest number of young children. To that end, we 
have created a systematic approach to voluntarily improving quality 
called Keystone STARS which integrates research-based standards, 
improvement strategies, financial resources, and public ratings of 
programs. An independent evaluation has shown that Keystone STARS has 
systematically reversed Pennsylvania's 10-year decline in childcare 
quality. But childcare alone is not enough--this year we are seeking to 
develop a new high quality program for at-risk 3- and 4-year-olds 
called Pre-K Counts. This targeted, highly focused investment will have 
immediate payoffs in our school system and future payoffs in academic 
and career achievement which will benefit our children and the broader 
community. For the exceptionally at-risk children of young, 
impoverished mothers, we continue to expand the renowned Nurse Family 
Partnership program. All three programs apply a similar framework of 
high standards, accountability and sufficient financial supports to 
early childhood issues in different settings
    We cannot afford to have a silver bullet approach to early 
childhood development where we focus on only one program or one 
financing stream. But we must insist upon a common framework across 
each of the programs for any public investment. This common framework 
makes a meaningful difference to children, and will build confidence 
from business and parents in our communities. This is the framework 
that we use.

    1) High standards and expectations for program quality, articulated 
in plain language, based on research and experience, and focused on the 
bottom line-outcomes for children;
    2) Professional preparation and ongoing education of the teachers 
and administrators to whom we are delegate the responsibility of 
delivering these programs. In short, investment in accountable methods 
for assuring that the people and programs are of good enough quality. 
It is not enough to tell people to achieve high standards, assistance 
is needed to achieve and maintain them;
    3) Accountability for results--and a practical way to help those 
people whose work is far outside of early childhood to see and 
understand these results;
    4) Financial supports that are linked directly and clearly to the 
standards we articulate and are made available at sufficient levels to 
get the job done.

    See Chart 1 below for how I like to think about and how we do act 
on this--it is a reminder that the work is complex, but that it can be 
broken down and a realistic, achievable strategy can be achieved.
   Chart 1: How Pennsylvania Approaches Its Early Childhood Programs

[GRAPHIC] [TIFF OMITTED] T8106.007

    The second point is the importance of shared and responsible public 
investment in these programs. Professor Heckman has made the case for 
improved investment. In Pennsylvania, we have been working to improve 
our state investment in these programs. Each year, I have been 
disappointed with the lack of improved Federal investment in early 
childhood programs. The established and dedicated funding streams in 
areas such as the Child Care and Development Block Grant and Head Start 
are not keeping pace. Pennsylvania is using state resources, for 
example, to close the gap between those eligible for Head Start and 
those funded at the Federal level. Our broad based educational streams 
that can be used on a discretionary basis to support some early 
childhood programs such as those under No Child Left Behind are also 
not keeping pace.
    While Pennsylvania has moved from less than 20 percent of our young 
children with an opportunity to participate in a good-quality program 
in 2003 to just over 30 percent today, this is possible only because of 
our state commitment and the growth of state dollars.
    This is not right--all of us reap a benefit when we invest in 
quality early education that makes it possible for children to achieve 
in school and throughout their lives. We need to see progress made at 
the Federal level in improving our investment. From my perspective, 
this means we should stand by the established programs, and that smart 
proposals such as the one that Senator Casey has advanced for preschool 
should move out of the idea stage and into a funded reality.
    The Federal role is to help with financing at a level that makes a 
meaningful difference, to insist that states have meaningful standards 
and accountability based on nationally acceptable minimums, and to 
facilitate coherence across the Federal programs. When we crafted 
Keystone STARS and the proposed Pre-K Counts, we turned to research-
based evidence and to other states' experience to learn what standards, 
accountability and supports will produce quality results. It is 
possible to have a national baseline that does not interfere with the 
sensitive implementation of state programs.
    This brings me to my third and final point, which is the importance 
of organizing the programs and resources so that they make sense. 
Historically, public responsibility for early childhood education 
programs has been scattered and divided among different agencies and 
revenue streams, both at the Federal and state levels. I know that our 
families do not care what we call the programs that we offer to them--
it doesn't matter to them if the program is named Keystone STARS, Head 
Start, Pre-K Counts or something else. As both parents and as 
taxpayers, people want to have confidence in the responsiveness and 
quality of the services to their children and they want to know that 
their public investments are made efficiently and are well-leveraged.
    In our state, we have chosen to take these issues on through our 
governance structure. My office is part of the organization of both of 
our Departments of Education and Public Welfare. Governor Rendell 
created this office in order to be efficient, to unify and integrate 
the early childhood programs of both agencies. The office covers the 
waterfront--we encompass school and community-based programs for 
children from birth through full-day kindergarten. Working across two 
agencies allows us to take advantage of the assets of our human 
services and educational systems. At the same time, we have a single 
staff and, as I described earlier, a consistent framework that we use 
to systematically advance the work.
    We are organizing the resources in new and creative ways and our 
governance structure recognizes the historical split between ``care'' 
and ``education'' and seeks an alternative, new pathway to early 
learning that takes the best from the history. We have to be prudent 
public stewards--and so this approach to governance allows us an 
ongoing commitment to both excellence and to efficiency.
    I urge you to remember that every child we educate is also 
America's child.
    Thank you for the opportunity to brief you today.

                               __________

    Prepared Statement of Douglas J. Besharov*, American Enterprise 
                  Institute for Public Policy Research
---------------------------------------------------------------------------
    * Douglas J. Besharov is the Joseph J. and Violet Jacobs Scholar at 
the American Enterprise Institute for Public Policy Research and a 
professor at the University of Maryland School of Public Policy. He was 
the first director of the U.S. National Center on Child Abuse and 
Neglect, and is the author of Recognizing Child Abuse: A Guide for the 
Concerned, published by the Free Press.
---------------------------------------------------------------------------
    Madam Chair, Senator Casey, members of the committee, thank you for 
inviting me to testify on this important topic.
    Because I understand that the other witnesses will make the case 
for investing in young children (something that I strongly agree with 
in theory), I will discuss what I see as the underlying question before 
you: Deciding how to make that investment so that it has a reasonable 
chance of being a success, or, to borrow a phrase from the investment 
world, does not go sour. That is the real challenge before you, and the 
nation.
    Because my time is short, I decided to put my testimony in the form 
of a series of questions and at least partial answers. Also, although 
there has been a tendency to speak about the goal of ``universal 
preschool,'' I will address only programs for low-income children 
because their needs are greatest.
    Many of the points I make below are discussed in greater detail in 
``Giving Head Start a Fresh Start'' in Handbook of Families and 
Poverty, eds. Russell Crane and Tim Heaton (Thousand Oaks, CA: Sage 
Publications, forthcoming, 2007).
1. Is there a serious achievement gap between low-income and more 
        fortunate children, and should it be a matter of government 
        concern?
    Yes. On a host of important developmental measures, a large and 
troubling gap exists between the scores of low-income children and more 
fortunate children. This gap, commonly called the ``achievement gap,'' 
but really much more multi-dimensional, curtails the life choices, 
employment opportunities, and earnings potential of large numbers of 
children, especially African Americans, Latinos, and other 
disadvantaged minorities.
    Regardless of what causes the gap, government should be concerned 
about its impact on the children and families involved as well as on 
the larger society. Government's response, however, should be guided by 
a full and accurate understanding of what causes the gap and what can 
be done about it.
2. What is the cause of the achievement gap, and can a preschool 
        program reduce it?
    The achievement gap has many causes, from the poverty stemming from 
a history of discrimination and curtailed opportunity to the child-
rearing styles of many disadvantaged families--with cause and effect 
intermingled in multiple and controversial ways. The plain fact is that 
the family is the primary teacher of young children--and compensatory 
programs face a much larger challenge than the advocates' rhetoric 
commonly suggests.
    The argument that preschool programs ``work'' stems largely from 
the widely trumpeted results of two small and richly funded 
experimental programs from 40 and 30 years ago: the Perry Preschool 
Project, and, later, the Abecedarian Project. They cost as much as 
$15,000 per child per year in today's dollars, often involved multiple 
years of services, had well-trained teachers, and instructed parents on 
effective child rearing. These programs are more accurately seen as 
hothouse programs that, in total, served fewer than 200 children. 
Significantly, they tended to serve low-IQ children or children with 
low-IQ parents.
    As you may know, I have been a critic of too easy assertions that 
Head Start, pre-K, and other early childhood education programs can 
reverse such deep-seated developmental deficits. Many of the studies 
that are used to support this line of argument are, simply put, not 
methodologically sound. Furthermore, most advocates tend to ignore the 
many studies that show these programs have little effect on children. 
For example, most objective observers have labeled the results of the 
Head Start Impact Study ``disappointing.'' If this study is to be 
believed, Head Start simply fails in its mission to help prepare 
students for school.\1\
---------------------------------------------------------------------------
    \1\ See U.S. Department of Health and Human Services, 
Administration for Children and Families, Head Start Impact Study: 
First Year Findings (Washington, DC: HHS, June 2005).
    For 4-year-olds (half the program), statistically significant gains 
were detected in only six of thirty measures of social and cognitive 
development and family functioning (itself a statistically suspect 
result). Of these six measures, only three measures--the Woodcock 
Johnson Letter-Word Identification test, the Spelling test and the 
Letter Naming Task--directly test cognitive skills and show a slight 
improvement in one of three major predictors of later reading ability 
(letter identification). Head Start 4-year-olds were able to name about 
two more letters than their non-Head Start counterparts, but they did 
not show any significant gains on much more important measures such as 
early math learning, vocabulary, oral comprehension (more indicative of 
later reading comprehension), motivation to learn, or social 
competencies, including the ability to interact with peers and 
teachers.
    Results were somewhat better for 3-year-olds, with statistically 
significant gains on 14 out of 30 measures; however, the measures that 
showed the most improvement tended to be superficial as well. Head 
Start 3-year-olds were able to identify one and a half more letters and 
they showed a small, statistically significant gain in vocabulary. 
However, they came only 8 percent closer to the national norm in 
vocabulary tests--a very small relative gain--and showed no improvement 
in oral comprehension, phonological awareness, or early math skills.
    For both age groups, the actual gains were in limited areas and 
disappointingly small. Some commentators have expressed the hope that 
these effects will lead to later increases in school achievement; 
however, based on past research, it does not seem likely that they will 
do so.
---------------------------------------------------------------------------
    I point this out not because I am hostile to the idea of Head 
Start--far from it--but because it hurts me to see a program so 
important to disadvantaged children not be successful.
    That's why the findings of recent studies are so heartening. Both 
``Project Upgrade'' (funded by HHS and evaluated by Abt Associates) and 
``Reading First'' (funded by the Department of Education and evaluated 
by Mathematica Policy Research, Inc.) used the most rigorous 
techniques--and they both show that a properly or narrowly focused, 
early childhood intervention can make a significant improvement in at 
least some elements of the cognitive development of disadvantaged 
children. (The same seems to be true for a number of state preschool or 
pre-K evaluations.)
    But those four words--``properly or narrowly focused''--hint at how 
complicated and politically controversial the next steps will be. Many 
experts in child development have successfully argued for less direct, 
cognitive-oriented instruction and more play-oriented and discovering-
learning activities. Yet, according to Nicholas Zill, former director 
of Child and Family Studies at Westat, Inc., ``the latest research 
evidence indicates that direct assessments of cognitive skills at 
kindergarten entrance are predictive of both early and later 
achievement, into the later grades of elementary school and beyond.'' 
\2\ In fact, the most successful interventions tend to use specific 
curricula that focus on building specific cognitive skills (such as 
reading, vocabulary, and math). But even these ``successful'' models do 
not make a socially significant improvement in many areas of child 
development--and many tend to ignore the child's social development.
---------------------------------------------------------------------------
    \2\ Nicholas Zill, e-mail message to Douglas Besharov, May 3, 2006.
---------------------------------------------------------------------------
    Let me be as clear as possible here: I read the research literature 
to say that preschool programs can probably make a marked improvement 
in the lives of disadvantaged children, but that we have only a partial 
idea of how they should be organized and managed, that is, brought to 
scale. As of now, there is no actual model of preschool services that 
has been proven successful in closing the achievement gap, and any 
additional funding should be used to create a flexible system that can 
change--and improve--as more knowledge is accumulated.
3. Should funding for early care and education be expanded, and if so, 
        for whom?
    As asked (and answered), this question usually assumes that most 
poor children do not now receive early childcare or education. But that 
is not quite correct, and an accurate answer to this question requires 
an understanding of current patterns of childcare and early education. 
That is not as simple as one might think because of the overlap among 
various programs and the lack of a centralized program data base.
    We have created such a data base, with financial support from the 
U.S. Department of Health and Human Services (childcare Bureau and Head 
Start Bureau), the National Institute for Early Education Research 
(NIEER) (at Rutgers University), and the Annie E. Casey Foundation. Our 
Early Education/childcare (``ee/cc'') Model is essentially an Excel-
based model of current childcare and early education program spending 
and enrollment. According to our model, which has been widely vetted:

     almost all poor 5-year-olds are in kindergarten or another school 
or preschool program (about 96 percent);
     almost 85 percent of all poor 4-year-olds are in either Head 
Start (about 48 percent); a full-time, subsidized childcare program 
under the Child Care and Development Fund (about 29 percent); or a 
preschool program (about 7 percent);
     about 43 percent of poor 3-year-olds are in such organized 
programs; and
     much lower proportions of poor children under age 3 are in such 
programs.

(See table 1.)
    Hence, the question is not simply whether funding for preschool 
programs should be increased, but, just as important, how any new 
funding should be spent within the context of existing services.
4. What are the options available to Congress for expanding childcare 
        and early childhood education programs?
    Congress' decision about how to expand early care and education 
programs is complicated by the fact that three largely separate and 
independent programs uneasily coexist in most communities. Each has 
major strengths and weaknesses, and any expansion effort should try to 
rationalize their currently uncoordinated operations.
    1. Enrich childcare programs by encouraging or requiring the use of 
curricula with a proven ability to raise achievement. An increasing 
number of low-income mothers have jobs, especially since welfare 
reform. According to the Survey of Income and Program Participation 
(SIPP), in 2002, about 19 percent of poor mothers of 4-year-olds worked 
full-time, and about 16 percent worked part-time. For 3-year-olds, the 
respective figures were both about 17 percent.\3\ As a result, 
enrollments in childcare programs have increased substantially, and 
Head Start no longer enjoys the dominant place in the constellation of 
Federal childcare and early childhood education programs.
---------------------------------------------------------------------------
    \3\ Authors' calculation based on U.S. Census Bureau, Survey of 
Income and Program Participation 2001 Panel Wave 4, from data files 
downloaded at http://www.bls.census.gov/sipp_ftp.html#sipp (accessed 
February 1, 2005).
---------------------------------------------------------------------------
    As late as the 1980s and early 1990s, Head Start was by far the 
largest early childhood program, amounting to over 40 percent of all 
Federal and related-state spending in some years. But by 2003, Head 
Start had fallen to only about 32 percent of total childcare 
spending,\4\ largely because of recent increases in childcare funding 
associated with welfare reform. (Between 1997 and 2004, for example, 
spending under the five major childcare programs--the Child Care and 
Development Fund, Head Start, Temporary Assistance for Needy Families, 
the Child and Adult Care Food Program, and the Social Services Block 
Grant--rose about 79 percent, from about $11.65 billion to about $20.89 
billion, compared to only about 45 percent, from $4.69 billion to $6.77 
billion, for Head Start.\5\ )
---------------------------------------------------------------------------
    \4\ Douglas J. Besharov and Caeli A. Higney, ``Federal and State 
childcare Expenditures, 1997-2004: Rapid Growth Followed by Rapid 
Spending'' (College Park, MD: University of Maryland, Welfare Reform 
Academy, 2006), http://www.welfareacademy.org/pubs/childcare/
childcarespending060907.pdf (accessed January 26, 2007).
    \5\ Douglas J. Besharov and Caeli A. Higney, ``Federal and State 
childcare Expenditures, 1997-2004: Rapid Growth Followed by Rapid 
Spending'' (College Park, MD: University of Maryland, Welfare Reform 
Academy, 2006), http://www.welfareacademy.org/pubs/childcare/
childcarespending060907.pdf (accessed January 26, 2007).
---------------------------------------------------------------------------
    For many years, it was said that the nation had to make a tradeoff 
between high-quality but expensive programs like Head Start and lower 
quality childcare programs designed to help low-income mothers who have 
jobs. Recent research efforts such as ``Project Upgrade'' and ``Reading 
First'' strongly suggest that, at modest additional cost, childcare 
programs can be more effective than Head Start in narrowing key 
elements of the achievement gap. This would have the advantage of being 
the least expensive option (see table 2), but would not deal with the 
children in Head Start nor those with parents who are not working. It 
would be an incomplete solution, at best.
    Moreover, despite the recent extremely promising evaluations of 
focused curricula, many childcare specialists think that making a 
meaningful improvement in the quality of childcare would require much 
more money and a high level of regulation. There is also some 
reluctance to embrace curricula that focus on cognitive achievement at 
the cost of social development. Most important, without addressing Head 
Start's problems, this strategy would not address the needs of the much 
larger number of children in that program.
    2. Improve Head Start's services so that it does a better job 
closing the achievement gap and expand its hours of operation to meet 
the needs of working mothers. This would have the advantage of building 
on an existing nationwide network of federally funded programs focused 
on poor children. But besides Head Start's disappointing impacts on 
child development, reorienting it to serve the growing number of 
children whose mothers have jobs would be a major and severely 
disruptive undertaking.
    It would also be very expensive. (See table 2.) Head Start is 
already the most expensive form of early intervention. By our estimate, 
the basic, part-day program costs about $5,608 per child. Expanding 
Head Start to full-time, full-year would bring costs to about $20,607 
per child--and that would not address Head Start's apparent inability 
to meet the developmental needs of poor children. Moreover, if the past 
is any guide, the Head Start community would oppose such moves and, 
instead, press for the program to serve younger children and higher-
income children without changing its approach to early childhood 
educational services.
    It is worth noting that private foundations, state policy-makers, 
and parents have decided against the Head Start option. Many liberal 
foundations have already shifted their support away from Head Start and 
toward the expansion of preschool or prekindergarten (``pre-K'') 
services--which siphon off hundreds of thousands of children from Head 
Start programs. Many states have likewise begun funding expanded 
prekindergarten programs, again at Head Start's expense.
    Perhaps the best indication of Head Start's slumping reputation 
comes from low-income parents themselves, who often choose not to place 
their children in Head Start. One can see this in the declining 
proportional enrollment of 4-year-olds, Head Start's prime age group. 
Between 1997 and 2006, even as the number of poor 4-year-olds increased 
and as Head Start's funded enrollment increased by about 15 percent 
(about 115,000 children) almost all of this increase went to 3-year-
olds and to Early Head Start. In those 8 years:

     the number of enrolled 4-year-olds decreased by about 3 percent, 
from 476,285 to 463,693;
     the number of enrolled 5-year-olds decreased by about 24 percent, 
from 47,629 to 36,368;
     but the number of enrolled 3-year-olds increased by about 33 
percent, from 238,143 to 318,220;
     the number of children in Early Head Start increased by about 186 
percent, from 31,752 to 90,920; and
     the number of children enrolled in Head Start for 2 or more years 
increased by about 55 percent or about 100,000 children (from about 
180,000 to about 280,000).

    3. Expand state pre-K and preschool programs. The new 
prekindergarten/preschool programs for low-income children established 
in many communities seem to be enormously popular. State spending on 
these state-funded prekindergarten/preschool programs, which serve 
mostly low-income children,\6\ increased greatly over the last decade 
and a half. Comparing estimates from the Children's Defense Fund and 
from the NIEER, it appears that state spending on these programs about 
tripled between the 1991/1992 and 2004/2005 school years, going from 
about $939 million\7\ to about $2.75 billion ($2.84 billion in 2005 
dollars).\8\
---------------------------------------------------------------------------
    \6\ The National Institute for Early Education Research, The State 
of Preschool: 2004 State Preschool Yearbook, stating: ``Most states 
targeted their programs to low-income children and children with other 
background factors that place them at risk for starting school behind 
their peers.''
    \7\ Karen Schulman, Helen Blank, and Danielle Ewen, Seeds of 
Success: State Prekindergarten Initiatives 1998-1999 (Washington, DC: 
Children's Defense Fund, 1999), p.31.
    \8\ W. Steven Barnett and Kenneth B. Robin, ``How Much Does Quality 
Preschool Cost?'' (working paper, National Institute for Early 
Education Research, 2006), http://nieer.org/resources/research/
CostOfEffectivePreschool.pdf (accessed March 9, 2007).
---------------------------------------------------------------------------
    School-based prekindergarten programs, alone, now enroll more 
children (of all incomes) than Head Start, and at their current growth 
rate, will soon be the dominant early childhood education program for 
low-income children. According to the U.S. Department of Education, 
total prekindergarten enrollment (of all ages and incomes) almost 
tripled between 1990/1991 and 2000/2001 (the latest year with 
comparable data), rising from about 300,000 children to about 800,000 
children.\9\
---------------------------------------------------------------------------
    \9\ U.S. Department of Education, National Center for Education 
Statistics, Digest of Education Statistics 2003, NCES 2005-025, ``Table 
40. Enrollment in public elementary and secondary schools, by level and 
grade: Fall 1987 to fall 2001,'' (Washington: U.S. Department of 
Education, 2004), http://nces.ed.gov/programs/digest/d03/tables/
dt040.asp, (accessed April 11, 2005). These data on 1990/1991 and 2000/
2001 prekindergarten enrollment come from the Common Core of Data, as 
reported by the Department of Education's Digest of Education 
Statistics.
---------------------------------------------------------------------------
    The expansion of these programs is still uneven. In the 2004/2005 
school year, ten states had no program at all.\10\ Others were quite 
small. Nebraska's, for example, covered only about 1,000 children at a 
cost of about $2.1 million. But a few are effectively universal, such 
as Georgia's, which now provides prekindergarten/preschool access to 
all 4-year-olds, regardless of family income. The program operates 5 
days per week for at least 6.5 hours per day. During the 2004/2005 
school year, the program spent about $276 million and served over 
70,000 4-year-olds (covering about 55 percent of all 4-year-olds, and 
about 26 percent of all 3- and 4-year-olds), resulting in an average 
per-child cost of about $3,899.\11\
---------------------------------------------------------------------------
    \10\ The states offering no prekindergarten/preschool program were 
Alaska, Florida, Idaho, Indiana, Mississippi, Montana, New Hampshire, 
North Dakota, Rhode Island, South Dakota, Utah, and Wyoming. See, W. 
Steven Barnett, Jason T. Hustedt, Kenneth B. Robin, and Karen L. 
Schulman, The State of Preschool: 2005 State Preschool Yearbook (New 
Brunswick, NJ: The National Institute for Early Education Research, 
2005), http://nieer.org/yearbook2005/pdf/yearbook.pdf (accessed March 
16, 2007).
    \11\ W. Steven Barnett, Jason T. Hustedt, Kenneth B. Robin, and 
Karen L. Schulman, The State of Preschool: 2005 State Preschool 
Yearbook (New Brunswick, NJ: The National Institute for Early Education 
Research, 2005), http://nieer.org/yearbook2005/pdf/yearbook.pdf 
(accessed March 16, 2007).
---------------------------------------------------------------------------
    Why the apparent preference for prekindergarten programs? Perhaps 
parents find them more attractive than Head Start because of their 
seeming universality. Although most pre-K programs are directed to low-
income children, they generally serve children from families with 
incomes as high as 185 percent of the poverty line.\12\ Or perhaps it 
is because parents deem pre-K programs to be superior, especially since 
they are usually in school buildings and staffed by better educated 
teachers. Certainly, the few evaluations of these programs suggest that 
they are substantially more successful than Head Start.
---------------------------------------------------------------------------
    \12\ W. Steven Barnett, Jason T. Hustedt, Kenneth B. Robin, and 
Karen L. Schulman, The State of Preschool: 2003 State Preschool 
Yearbook (New Brunswick, NJ: National Institute for Early Education 
Research, 2003).
---------------------------------------------------------------------------
    In any event, judging from the growth in enrollments, expanding 
preschool programs is apparently the most popular option available to 
Congress. Doing so, however, would not provide assistance to low-income 
children under age 4, and would also be expensive if expanded to cover 
the full-time care needed by the children of working mothers. (The 
NIEER estimates the cost to be about $13,556 per child.)
    Moreover, these pre-K programs are unlikely to have a meaningful 
impact on the most distressed children and families--who need earlier 
and more intense intervention.
4. What should Congress do?
    To be successful, any expansion of early childhood education 
programs should (1) build on--but also rationalize--these three key 
programs and (2) allow them to change over time as needs change and as 
experience and research suggests programmatic shifts.
    Rationalizing the three key early education programs starts with 
the understanding that we should not have a one-size-fits-all approach 
to early childhood education. Head Start, for example, tries to do too 
much for some children--and too little for others. Despite the 
conventional rhetoric, not all poor children have the cognitive and 
developmental problems that prompted Head Start's creation. Many poor 
children do not need the array of support services provided by Head 
Start and, based on the evidence, do just fine in regular childcare 
when their mothers work. Children from the most troubled families 
(usually headed by young, single mothers), however, need much more than 
the program currently provides.
    Hence, at the risk of being wildly impractical, I would suggest an 
approach that recognizes the differing needs of low-income children:

    (1) Childcare programs. A strong commitment to early childhood 
education should be added to childcare programs funded under the Child 
Care and Development Fund (CCDF). This program is largely and 
successfully operated through a voucher system to parents. Although 
this should not change, a systematic and on-going effort at both the 
Federal and state levels to identify effective curricula and program 
approaches (such as those described above) could be the basis of 
professional and parental education and, hence, wide-scale program 
improvement.
    (2) Pre-K and other preschool programs. As described above, these 
programs have grown dramatically; they already enroll more children 
than Head Start. Because these programs are largely state-funded, the 
first question one might ask is whether the Federal Government should 
become involved at all. But that is probably a naive question. Even 
those states already spending money on preschool programs will be eager 
for Federal assistance, despite the possibility of more Federal 
oversight.
    My concerns are two-fold. First, it is not clear how most preschool 
programs will be integrated into full-time childcare arrangements for 
the children of working mothers. At present, they seem to require the 
same kinds of awkward ``wrap-around'' services as Head Start. Second, 
most of these programs have been established in public schools and it 
is not clear to me whether we want to create another education 
monopoly. Why not give parents the right to select the preschool 
program of their choice? (As mentioned above, the CCDF operates largely 
on that principle.) That would also encourage the creation of flexible 
programs that meet the varying needs of working mothers.
    (3) Head Start. The current Head Start model is just not 
sufficient, in terms of both its services and curriculum. It generally 
consists of only 4 hours a day of classroom instruction (some grantees 
provide more), for less than 9 months. And, despite Head Start's claims 
about ``parent involvement,'' there seem to be no systematic efforts to 
include parents in the program or to give parents better child-rearing 
skills.

    The best thing would be for Head Start to go back to its roots, to 
search for ways to make a meaningful improvement in the lives of the 
poorest, most disadvantaged children. It might, for example, provide 
services to unwed teenagers that start during their first pregnancy. 
Focusing on the most in need, the new Head Start would be truly two 
generational, that is, with real services for parents (not just the 
current lip service to parent involvement), and it would bring to bear 
all the programmatic services that have developed since Head Start was 
first conceived--the Women, Infants, and Children program (WIC), 
Medicaid, the Maternal and Child Health Services Block Grant program, 
the Community and Migrant Health Center Program, and the Title X 
program, which seeks to reduce unintended pregnancy by providing 
contraceptive and related reproductive health care services to low-
income women.
    Before closing, I want to emphasize what I hope has been my clear 
theme: A strong case can be made for expanded early childhood education 
services, but only in the context of program flexibility (enhanced by 
vouchers) and systematic and rigorous research and evaluation. We have 
so much more to learn.
    Congress should mandate a systematic program of research and 
experimentation, one that tries and evaluates different approaches to 
see what works best. We simply do not have a scientifically tested 
knowledge base about which approaches work--and for whom. Needed is a 
scientifically rigorous inquiry into the comparative effectiveness of 
various curricula and program elements, such as full-day versus part-
day and 1- versus 2-year programs, traditional 9-month versus full-year 
programs, classroom size (paralleling work on class size done at the 
elementary level), the training or formal education of teachers, and 
effective ways of helping parents do a better job meeting their 
children's needs. Most important, distinctions among children from 
different family backgrounds and with different degrees of need will be 
crucial.
    Such a multifaceted research and development effort could be 
patterned after the new one for K 0912 education established under the 
No Child Left Behind legislation. That effort enjoys a $400 million 
annual budget, compared to only $20 million for Head Start research. A 
tripling of Head Start's research budget would be a good start. If no 
new money is available, Congress could reallocate some of the $30 
million to $111 million now designated in the pending reauthorization 
bills for quality improvements (especially since about half of these 
funds go to raise the salaries of Head Start staff, already among the 
highest in the early childhood education world).
    Conducting such an inquiry will require substantial intellectual 
and political effort--because of the turf battles it would trigger, the 
scientific challenges involved in designing so many multi-site 
experiments, and the sustained monitoring and management needed. 
Nevertheless, without an effort on this scale and without such 
intellectual clarity, it is difficult to see how better approaches to 
childcare and early childhood education can be developed.
    Thank you.

                          Table 1.--Combined Coverage of Income-Eligible Children in Head Start and Selected Other Arrangements
                                                                         By Age
                                                                       (2000/2001)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                      Total poor                                               At enrollment
                                       children  -------------------------------------------------------------------------------------------------------
                                    -------------   Nonpoor      Poor children in Head       Poor children in       Poor children in full-
                                                  children in            Start                  preschool,             time, subsidized         Total
                Age                                Head Start --------------------------   prekindergarten, and            childcare           combined
                                        Number   -------------                                    school          -------------------------- coverage of
                                                                  Number      Coverage  --------------------------                               poor
                                                     Number                                 Number      Coverage      Number      Coverage     children
--------------------------------------------------------------------------------------------------------------------------------------------------------
3..................................      694,743       86,426      209,536          30%       38,574           6%       50,871           7%          43%
4..................................      697,681      137,032      332,226          48%      201,216          29%       50,871           7%          84%
5..................................      673,753       11,064       26,823           4%      580,992          86%       39,131           6%          96%
3-5................................    2,066,177      234,522      568,585          28%      820,782          40%      140,872           7%          74%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sources and notes: ``Total poor children'' based on special tabulations by Richard Bavier, Office of Management and Budget, based on: U.S. Census
  Bureau, 2002 Annual Social and Economic Supplement to the Current Population Survey (Washington, DC: U.S. Department of Commerce, 2002). U.S.
  Department of Health and Human Services, Head Start Bureau, ``Head Start Program Information Report for the 2000-2001 Program Year'' (Washington, DC:
  U.S. Department of Health and Human Services, undated); U.S. Department of Education, National Center for Education Statistics, ``Prekindergarten in
  U.S. Public Schools: 2000-2001,'' NCES 2003-019 (Washington, DC: U.S. Department of Education, 2003), http://nces.ed.gov/pubs2003/2003019.pdf
  (accessed December 19, 2003); U.S. Census Bureau, ``School Enrollment--Social and Economic Characteristics of Students: October 2001, Detailed
  Tables,'' table 2, ``Single Grade of Enrollment and High School Graduation Status for People 3 Years Old and Over, by Age (Single Years for 3 to 24
  Years), Sex, Race, and Hispanic Origin: October 2001,'' http://www.census.gov/population/socdemo/school/cps2001/tab02.pdf (accessed April 25, 2005);
  and Child Care and Development Fund: Special tabulations of 2001 CCDF data prepared for the U.S. Department of Health and Human Services,
  Administration for Children and Families, childcare Bureau, by Anteon Corporation, 2003. ``Nonpoor Children in Head Start'' is Table 1's ``Total
  reported nonpoor enrollment,'' divided by the PIR's age distribution for cumulative enrollment. ``Poor children in Head Start'' is the total Head
  Start funded enrollment, distributed by age, minus the number of nonpoor children. ``Total combined coverage of poor children'' is the number of poor
  children in Head Start added to the number of poor children in preschool, prekindergarten, school (including kindergarten), and full-time, subsidized
  childcare.



     Table 2.--Cost Comparisons: Head Start, Early Head Start, CCDF childcare, and Prekindergarten/Preschool
                                                   (2003/2004)
----------------------------------------------------------------------------------------------------------------
                                                        Head Start                   CCDF               Pre-K/
                                                ----------------------------------------------------  Preschool
                      Cost                         Ages 3-5     Ages 0-2           Ages 3-5         ------------
                                                ----------------------------------------------------
                                                     (HS)      (Early HS)     Center       Family      Ages 3-4
----------------------------------------------------------------------------------------------------------------
Average per child (regardless of hrs)
  Head Start Bureau estimate...................       $7,222       $7,222  ...........  ...........  ...........
  Besharov/Myers estimate......................       $9,381      $15,999       $8,100       $7,225  ...........
  NIEER estimate...............................  ...........  ...........  ...........  ...........       $3,435
Part-day and full-day sessions
  Besharov/Myers estimate (part-day)...........       $5,608  ...........  ...........  ...........  ...........
  Besharov/Myers estimate (full-day)...........      $12,570  ...........  ...........  ...........  ...........
Hourly (across all durations)..................        $8.99       $10.21        $4.18        $3.81          n/a
Hourly (full-time).............................        $8.41       $10.17        $3.52        $3.15        $5.53
Hourly (part-time).............................       $10.51       $12.71        $4.45        $3.96          n/a
Full-time, full-year (50 hours/week, 49 weeks/       $20,607      $24,904       $8,616       $7,709      $13,556
 year).........................................
----------------------------------------------------------------------------------------------------------------
Source: Douglas J. Besharov, Justus A. Myers, and Jeffrey S. Morrow, ``Costs Per Child for Early Childhood
  Education and Care: Comparing Head Start, CCDF childcare, and Prekindergarten/Preschool Programs (2003/
  2004),'' (June 22, 2007).

  

                                  <all>

</pre></body></html>
